<html>
<title> - [H.A.S.C. No. 111-12]RECRUITING, RETENTION AND END STRENGTH OVERVIEW</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-12]
 
            RECRUITING, RETENTION AND END STRENGTH OVERVIEW

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
50-088                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, March 3, 2009, Recruiting, Retention and End Strength 
  Overview.......................................................     1

Appendix:

Tuesday, March 3, 2009...........................................    49
                              ----------                              

                         TUESDAY, MARCH 3, 2009
            RECRUITING, RETENTION AND END STRENGTH OVERVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Bergman, Lt. Gen. John W., USMCR, Commander, Marine Forces 
  Reserve........................................................    27
Coleman, Lt. Gen. Ronald S., USMC, Deputy Commandant for Manpower 
  and Reserve Affairs, Headquarters, U.S. Marine Corps...........     7
Debbink, Vice Adm. Dirk J., USNR, Chief, Navy Reserve............    26
Ferguson, Vice Adm. Mark E., III, USN, Chief of Naval Personnel, 
  Deputy Chief of Naval Operations, Total Force..................     6
Gilroy, Dr. Curtis, Director, Accessions Policy, Office of the 
  Under Secretary of Defense for Personnel and Readiness.........     4
May, Rear Adm. Daniel R., USCG, Chief, Coast Guard Reserve Forces    29
Newton, Lt. Gen. Richard Y., III, USAF, Deputy Chief Staff, 
  Manpower and Personnel, Headquarters, U.S. Air Force...........     8
Rochelle, Lt. Gen. Michael D., USA, Deputy Chief of Staff, G-1, 
  Headquarters, U.S. Army........................................     5
Stenner, Lt. Gen. Charles E., Jr., AFR, Chief, U.S. Air Force 
  Reserve........................................................    28
Stultz, Lt. Gen. Jack C., USAR, Chief, U.S. Army Reserve and 
  Commanding General, U.S. Army Reserve Command..................    25
Vaughn, Lt. Gen. Clyde A., ARNG, Director, Army National Guard...    24
Wyatt, Lt. Gen. Harry M., III, ANG, Director, Air National Guard.    28

                                APPENDIX

Prepared Statements:

    Bergman, Lt. Gen. John W.....................................   165
    Coleman, Lt. Gen. Ronald S...................................   101
    Davis, Hon. Susan A..........................................    53
    Debbink, Vice Adm. Dirk J....................................   146
    Ferguson, Vice Adm. Mark E., III.............................    80
    Gilroy, Dr. Curtis...........................................    57
    May, Rear Adm. Daniel R......................................   196
    Newton, Lt. Gen. Richard Y., III.............................   110
    Rochelle, Lt. Gen. Michael D.................................    68
    Stenner, Lt. Gen. Charles E., Jr.............................   178
    Stultz, Lt. Gen. Jack C......................................   134
    Vaughn, Lt. Gen. Clyde A.....................................   122
    Wilson, Hon. Joe.............................................    56
    Wyatt, Lt. Gen. Harry M., III................................   172

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Jones....................................................   205

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   209
    Mr. Loebsack.................................................   213
    Mr. Murphy...................................................   212
            RECRUITING, RETENTION AND END STRENGTH OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                            Washington, DC, Tuesday, March 3, 2009.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. The meeting will come to order.
    Today, the subcommittee will turn its attention to the 
important issue of end strength within the active and reserve 
components of our armed forces and the personnel programs that 
are the building blocks of those forces' recruiting and 
retention.
    During the fiscal year 2005 through 2007, the recruiting 
environment had been difficult. That is something that we are 
all familiar with. Relatively low unemployment, a protracted 
war on terrorism, and increased interest in college attendance 
all contributed to a reduced propensity for youth to serve and 
a reluctance for influencers to recommend military careers. 
Recruiting and retention programs were under great stress, and 
the services resorted to increased spending to keep the 
volunteer force on track. Many of those funding increases were 
supported with wartime supplemental appropriations; and the 
uncertainty of supplemental funds to support critical programs, 
such as recruiting and retention, had been a concern of the 
subcommittee.
    During fiscal year 2008, a new environment began to take 
shape as housing markets and financial institutions began to 
crumble and the national economy slipped into recession. The 
unemployment rate grew 7.6 percent in January; and payroll 
employment has declined by 3.6 million since December, 2007. 
This new economic reality--and I must say this is not something 
that we are happy about, but it has had an upside in many ways, 
and we will be talking about that. This new economic reality 
has been shaping the attitudes of young recruit candidates and 
service members and their families about enlisting and 
reenlisting in the military in the same way that continues to 
shape the attitudes of millions of Americans about employment 
and job security.
    The effect on recruiting and retention has been remarkable. 
Recruit quality programs that had been of such great concern to 
this subcommittee just a few short months ago have virtually 
evaporated. With only a few exceptions--and there are some--
goals are being achieved, end strengths are growing, and forces 
are being reshaped to meet the demands of this global war. 
During the hearing today, we hope to learn more from our active 
and reserve leaders about what needs to be done to create the 
most effective and efficient forces possible.
    Unfortunately, this bright picture has a dark side that 
cannot be escaped. Budget managers will now begin to stalk 
these programs for savings and, rightly so. Because, as 
recruitment and retention become easier, one must assume it can 
be done more cost effectively. The question before us today is 
how all the goals, growth, and reshaping will be achieved with 
far less funding than what has been available up to this point.
    We have two excellent panels to help us explore these 
issues. I am particularly pleased to have the opportunity to 
discuss our reserve forces in greater detail during the second 
panel when we will hear testimony from our reserve component 
chiefs.
    I would request that all witnesses keep their oral opening 
to three minutes as much as you can. We know that is difficult. 
You have a lot to say. There is a lot of history here. But if 
you can keep it to that, it will help us out.
    Without objection, all written statements will be entered 
into the record.
    I now want to turn to the ranking chair, Mr. Wilson, for 
any opening comments.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 53.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis.
    We have two excellent witness panels today, and I really 
can't wait for the American people to see each of you. I have 
been so impressed in meeting with you individually; and, as I 
look out, I'm just in awe of the professionals who are here 
today who provide extraordinary opportunities for the young 
people of our country to serve. Your efforts have directly 
contributed to the extraordinary success of the active and 
reserve components in not only sustaining the All-Volunteer 
Force during a highly stressful time but, also, in the case of 
the Army and Marine Corps and Army National Guard, in 
substantially accelerating the growth of the force. I want to 
thank each of our witnesses for their efforts.
    With regard to growth, the Army and Marine Corps sought 
strengths of 547,400 and 202,000 respectively to be achieved in 
2011 or beyond. Amazingly, they will achieve those strengths 
before the end of the year. The Army National Guard has already 
exceeded its 2013 strength goal of 358,000. This accelerated 
growth reflects the effects of the final budget submitted by 
President Bush and the subsequent fine work by our witnesses 
today.
    I represent Fort Jackson for Army training, and I'm 
grateful to represent Parris Island for Marine training, so I 
have seen it firsthand. And I do know firsthand of the 
rewarding experience of military service, having served 31 
years in the Army Reserve and Army National Guard.
    I am grateful I have four sons who know of the fulfillment 
of military service. My oldest is a national guard veteran of 
Iraq. My second is an active duty member of the Navy, who I 
visited a year ago today in his service in Iraq. My third is a 
national guard signal officer currently in training at Fort 
Jackson. And my youngest is Army Reserve Officers' Training 
Corps (ROTC) at Clemson University; and, in December, he joined 
the national guard simultaneous drill program. And I, of 
course, want to give credit to my wife for inspiring them to 
serve.
    Your recruiting and retention efforts are providing 
wonderful, life-long opportunities for the young people of 
America. The challenge for President Obama's 2009 supplemental 
funding proposal and for the 2010 budget request is to sustain 
that accelerated growth in the Army, Marine Corps, and Army 
National Guard. Moreover, I understand that both the Navy and 
the Air Force will seek to increase strength in 2010 and 
beyond. I look forward to the details of the President's budget 
request next month to see if that additional Navy and Air Force 
growth is provided.
    I firmly believe that our military needs to be larger to 
address the full range of missions we have levied upon it and 
the threats we face, and to ensure that this stress on the 
force and the families who support it is minimized. Any calls 
now to reduce military manpower to fund modernization would be 
shortsighted. Both the Air Force and Navy have reached that 
conclusion. I would hope that Congress will, too.
    The keys to sustaining increasing military manpower are 
recruiting, retention, and control of unplanned attrition. Our 
two panels today can help us to understand the challenges in 
each of those areas. So I want to join you, Madam Chairwoman, 
in welcoming our witnesses; and I look forward to their 
testimony.
    Additionally, last year, I was very grateful, with the 
chairwoman, to visit the recruiting and retention school at 
Fort Jackson, South Carolina; and we saw firsthand, again, the 
extraordinary personnel who are working to provide opportunity 
for the young people of our country.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 56.]
    Mrs. Davis. Thank you, Mr. Wilson.
    I would like to introduce our first panel: Dr. Curtis 
Gilroy, who is the Director of the Accessions Policy, Office of 
the Under Secretary of Defense for Personnel and Readiness; 
General Michael Rochelle, Deputy Chief of Staff, G-1, 
Headquarters, U.S. Army; Vice Admiral Mark E. Ferguson, Chief 
of Naval Personnel, Deputy Chief of Navy Operations, Total 
Force; Lieutenant General Ronald Coleman, Deputy Commandant for 
Manpower and Reserve Affairs, Headquarters, U.S. Marine Corps; 
and Lieutenant General Richard Newton, Deputy Chief of Staff, 
Manpower and Personnel, Headquarters, U.S. Air Force.
    Thank you all for being here, and we look forward to your 
comments.
    Mrs. Davis. Doctor Gilroy.

 STATEMENT OF DR. CURTIS GILROY, DIRECTOR, ACCESSIONS POLICY, 
  OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND 
                           READINESS

    Dr. Gilroy. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee and staff, thank you 
for inviting us to discuss our recruiting and retention 
programs with you today. I'm delighted to report to you that 
the state of recruiting and retention for our active duty 
force, as we are one-third of the way through fiscal year 2009, 
is a success.
    Let me make three points in the limited time that I have.
    Point number one, the services have done a remarkable job 
in recruiting a quality force in an environment that has been 
characterized by most as the most challenging since the advent 
of the All-Volunteer Force in 1973. I know this because I have 
studied this, I have written about the volunteer force, and I 
have helped manage the volunteer force for 30 years.
    As the economy continues to dip and unemployment rises, 
recruiting should be somewhat less difficult. We know this. But 
the economy is not the only driver of our retention and our 
recruitment programs. We have other significant challenges that 
are facing us today, and let me just talk briefly about those.
    Influencers of youth, for example--Madam Chairwoman, you 
mentioned that just a moment ago--are much less likely to 
recommend military service to young people today than they did 
two, three, four years ago--parents, teachers, coaches, 
guidance counselors. And we know that propensity among youth 
themselves is much less than it is today--than it was two, 
three, four years ago. We also know that we have a declining 
pool of eligible and qualified young people in America today 
who want to serve, owing mostly to health and physical fitness 
issues and education problems.
    We have a crisis in this country, don't we? We have an 
obesity problem amongst our youth, and we have an education 
crisis as well. Seventy to 75 percent of young people today 
have a high school diploma, a bona fide high school diploma. 
That is a sad state of affairs.
    So when we add all of the qualifiers we find that only 25 
percent of our young people today age 17 to 24 are qualified 
for military service. Not a good situation.
    We have an ongoing Global War on Terror and the associated 
operations tempo; and, lastly, we have the need to maintain end 
strength for the Army and the Marine Corps at relatively high 
levels. These are our challenges, despite the fact that 
unemployment is rising and the economy is slacking.
    Point number two, to the extent that there will be pressure 
for budgetary realignment and budget cuts, if you will, and 
these will be directed to our recruiting and retention 
programs, I ask that we move cautiously and deliberately when 
we consider these. Historically, when the economy weakens and 
recruiting and retention became less challenging, these 
programs have been ripe for cuts. Recall the crisis in the late 
1970s, as a result of significant and I should say careless 
cuts during those times. Recall the problems in the mid-1980s 
for the same reason. And recall the issues in the late 1990s 
when all four services missed their recruiting goals in either 
1998 or 1999 for the very same reason.
    These lessons from the past showed us that it is easy and 
quick to cut budgets during times when recruiting and retention 
are successful, but we also learned from those lessons of the 
past how difficult and how time consuming and how expensive it 
is when we need to ramp up, when recruiting and retention 
failed, as a result of those budget cuts.
    If we do not pay attention to the history lessons, we are 
doomed to repeat these sins of the past. And that is why we are 
working together, the services and Office of the Secretary of 
Defense (OSD), to review our recruiting and retention programs 
to ensure funding adequacy without excess.
    Finally, in conclusion, the success of our voluntary 
military during good times and during challenging times results 
directly from this subcommittee's continued support for which 
we are very, very grateful. We have recently celebrated 35 
years, our 35th anniversary of our volunteer military; and we 
thank you for your significant role in the success over those 
years.
    We stand by to answer any questions that you may have. 
Thank you.
    Mrs. Davis. Thank you.
    [The prepared statement of Dr. Gilroy can be found in the 
Appendix on page 57.]
    Mrs. Davis. General Rochelle.

STATEMENT OF LT. GEN. MICHAEL D. ROCHELLE, USA, DEPUTY CHIEF OF 
              STAFF, G-1, HEADQUARTERS, U.S. ARMY

    General Rochelle. Thank you, Madam Chairwoman, Ranking 
Member Wilson, distinguished members of the subcommittee. Good 
morning and thank you for the opportunity to appear before you. 
I thank you for the opportunity to appear today and thank you 
for your wonderful and continued support.
    The past few years have been a significant era in the 
history of our Nation's Army as we have faced the multiple 
challenges to keep the Army vibrant, balanced, and successful, 
while able to defend our country against some of the most 
persistent and wide-ranging threats in our Nation's history. 
Our success in those endeavors has been due in large part to 
the support of the Congress and the support the Congress has 
given us through the many programs that have been instituted 
since the Nation went to war in 2001.
    First and foremost, you have given us the means to recruit 
and retain an agile Army. As a result, for the past two years 
we have met or exceeded our recruiting and retention goals for 
the total Army. You have supported initiatives that have 
allowed us to transform our force into one Army that 
consistently uses the talents of our active, reserve, and 
national guard soldiers as well as our civilian team members.
    We could not have succeeded without your support. You have 
given us the means to improve the quality of life for our 
soldiers and their families, and soldiers are remaining in the 
Army because they see it as a higher calling of service and a 
great place to raise a family. You have given us the means to 
care for our wounded soldiers; and, paraphrasing the prophetic 
words of George Washington, one of the strongest indicators of 
a healthy force is the way the Nation cares for its wounded.
    Our Wounded Warrior programs have proven to our soldiers 
and their families that this Nation will not forget their 
sacrifices, nor will they be forgotten. This support has helped 
us sustain the health of an Army that has endured the longest 
period of combat and conflict in our Nation's history. The Army 
continues to face challenges, but it is our intent to stay in 
front of those challenges, anticipating them and developing 
strategies and programs that will keep America's Army strong.
    The eligible population to serve in our armed forces has 
declined over the past decade, and we must continue to work 
hard to attract and retain the very best. The challenging 
environments that our soldiers serve in require more targeted 
recruitment, and we must remain ever vigilant that our force is 
manned to meet the various crises that continue to develop 
around the globe. We must also deal with such issues as--such 
painful issues, I might add, as suicides over the past few 
months. I'm confident, however, that the operational and 
institutional agility of this Army--that this Army has 
developed over the past eight years, with it we will meet the 
challenges that will come our way.
    In closing, your leadership and your support have been 
unwavering. I have appreciated the discussions we have had over 
the years concerning the health of the Army, and I look forward 
to your questions today.
    Thank you.
    Mrs. Davis. Thank you.
    [The prepared statement of General Rochelle can be found in 
the Appendix on page 68.]
    Mrs. Davis. Admiral Ferguson.

  STATEMENT OF VICE ADM. MARK E. FERGUSON III, USN, CHIEF OF 
 NAVAL PERSONNEL, DEPUTY CHIEF OF NAVAL OPERATIONS, TOTAL FORCE

    Admiral Ferguson. Chairwoman Davis, Representative Wilson 
and distinguished members of the House Armed Services 
Committee, it is a pleasure to review with you today the Navy's 
recruiting and retention efforts as well as our end strength 
projections for this year.
    We remain a global Navy, with over 40 percent of our forces 
under way or deployed. We have increased our operational 
availability through the fleet response plan and are engaging 
in new mission areas in support of the joint force. We continue 
to play a key role in support of joint operations in 
Afghanistan, Iraq, and across the globe by providing 
approximately 14,000 sailors as individual augmentees. With 
this high operational tempo, we remain vigilant concerning 
stress on our sailors and their families. We ensure that 
sailors have adequate opportunity to rest and spend time at 
home between deployments and provide them a comprehensive 
continuum of care.
    The tone of the force is positive. Sailors and their 
families continue to express satisfaction with the morale and 
leadership at their commands, their health care, benefits, and 
compensation.
    Over the past year, we have been successful in recruiting 
high-quality sailors. In 2008, we achieved our enlisted and 
officer goals across both the active and reserve components, 
while exceeding Department of Defense (DOD) quality standards 
in all recruit categories. For the first time in five years, we 
achieved overall active and reserve medical officer recruiting 
goals.
    Beginning in 2008 and continuing into this year, the 
comprehensive benefits provided by the Congress for our service 
members, combined with the current economic conditions, have 
resulted in an increased retention and lower attrition across 
the force. To ensure the long-term health of the force, we are 
transitioning from a posture of reducing end strength to one we 
term ``stabilizing the force.'' To meet global demands and 
minimize stress on the force, the Secretary of the Navy used 
his end strength waiver authority for 2008 and 2009. We project 
to finish 2009 within two percent above our statutory end 
strength limit.
    Our stabilization efforts have been directed at sustaining 
a high-quality force able to respond to new mission areas 
within our fiscal authorities. We are guided by the following 
principles: one, continue to attract and recruit our Nation's 
best and brightest; retain the best sailors; target incentives 
to retain those with critical skills; balance the force in 
terms of seniority, experience, and skills matched to projected 
requirements; safeguard the careers of our top performers; and 
provide the fleet and joint force stable and predictable 
manning.
    On behalf of all the men and women in uniform who sacrifice 
daily and their families, I want to extend my sincere 
appreciation to you and the members of the committee for their 
unwavering support for our Navy.
    Thank you.
    Mrs. Davis. Thank you very much.
    [The prepared statement of Admiral Ferguson can be found in 
the Appendix on page 80.]
    Mrs. Davis. General Coleman.

     STATEMENT OF LT. GEN. RONALD S. COLEMAN, USMC, DEPUTY 
COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, HEADQUARTERS, U.S. 
                          MARINE CORPS

    General Coleman. Chairwoman Davis, Congressman Wilson, 
distinguished members of the subcommittee, it is a privilege to 
appear before you today along with Lieutenant General Jack 
Bergman, Commander of the Marine Forces Reserves.
    I would like to make a few key points, first with regard to 
our end strength growth. The Marine Corps achieved 
unprecedented success in fiscal year 2008, growing by over 
12,000 marines. We have since surpassed the 200,000 mark and 
fully expect to reach our goal of 202,000 during fiscal year 
2009, two years ahead of schedule. We owe this historic success 
in large part to our recruiters, who met all succession goals 
in fiscal year 2008, while maintaining the highest quality 
standards. Thank you for your continued support of our 
enlistment incentives which make these achievements possible.
    Active component retention has also been successful. We 
achieved an unprecedented 36 percent retention rate among our 
first-time marines, exceeding our 31 percent in fiscal year 
2007 which in itself was an historic high.
    We thank you for your support of our selective reenlistment 
bonus (SRB) program. It is the foundation of our retention 
efforts. We will continue to require a robust level of SRB 
funding to increase retention in targeted and specialized 
Military Occupational Specialties (MOS) so we maintain a vital 
Marine Corps leadership and experience.
    While we did miss our reserve authorized end strength by 
approximately 2,000, this was due in large part to the focus we 
placed on return and reserve personnel to the active force. As 
we close in on our 202,000 plan, we will now refocus our 
efforts on increasing our reserve end strength.
    Lastly, I want to personally thank you for your staff's 
recent visit to our Wounded Warrior Regiment West Battalion. I 
know our Nation's wounded warriors are a top priority for you; 
and I can assure you that they are for the Marine Corps, too.
    With our 202,000 end strength success in the near horizon, 
I want to thank you and other Members of Congress for your 
support and partnership. The increased funding and flexibility 
authorizations that you provided are central to the strength 
that your Marine Corps enjoys today. We will continue to rely 
on them as we grow and maintain 202,000 and we work to shape 
the Marine Corps for the 21st century so we will always remain 
the most ready when the Nation is least ready.
    I look forward to your questions.
    Mrs. Davis. Thank you very much.
    [The prepared statement of General Coleman can be found in 
the Appendix on page 101.]
    Mrs. Davis. General Newton.

STATEMENT OF LT. GEN. RICHARD Y. NEWTON III, USAF, DEPUTY CHIEF 
 OF STAFF, MANPOWER AND PERSONNEL, HEADQUARTERS, U.S. AIR FORCE

    General Newton. Madam chairwoman, Ranking Member Wilson and 
members of the committee, thank you for this opportunity to 
discuss our efforts to ensure we attract, recruit, develop, and 
retain a high-quality and diverse fighting force for the 
world's most respected Air Force.
    Today, airmen are fully engaged in joint operations across 
the globe and stand prepared for rapid response to asymmetric 
threat as well as unconventional conflicts. Our priorities are 
clear: reinvigorating the Air Force nuclear enterprise; 
partnering with the joint and coalition team to win today's 
fight; developing and caring for airmen and their families; 
modernizing our air and space inventories, organizations, and 
training; and recapturing acquisition excellence. These 
priorities will shape the strategic landscape that currently 
provide significant challenge to our organization's systems, 
concepts, and our doctrine.
    Regardless, today's airmen are doing amazing things for the 
joint war fighting team. Our aim is to improve capability by 
tapping into all available sources so we do not lose the war 
for America's talent. As such, the Air Force has made diversity 
a strategic imperative to ensure we remain prevalent as the 
greatest combat-ready Air Force in the world.
    As we prepare for an uncertain future, we are transforming 
the force to ensure we are the right size and shape to meet 
emerging global threats with joint and battle-trained airmen. 
For fiscal year 2008, our active duty officer corps met or 
exceeded all aggregate retention goals, while overall active 
duty enlisted retention rates finished below annual goals.
    Whereas retention is strong within our officer corps, a few 
pockets of concern exist among control and recovery, health 
professionals and contracting.
    The Air Force continues to develop both the accession and 
retention incentives to ensure the right mix of health 
professionals. Additionally, our most critical war-fighting 
skills require special focus on enlisted retention due to 
demands on the high operations tempo placed on airmen who 
perform duties such as para rescue, command and control, 
tactical air control party, and explosive ordnance disposal. 
Just as important, we are committed to taking care of families 
and our wounded warriors as an essential piece of retaining an 
effective force.
    In conclusion, our airmen are doing amazing things to meet 
the needs of the joint war fighter. They execute the Air Force 
mission and keep the Air Force on a vector for success against 
potential future threats in that uncertain world of ours. The 
Air Force must safeguard our ability to see anything on the 
face of the Earth, range it, observe it or hold it at risk, 
supply, rescue, support or, in cases, destroy it, all the while 
assessing the effects and exercise global command and control 
of all those activities.
    Rising to the challenges of the 21st century is not a 
choice. It is a responsibility to bequeath a dominant Air Force 
to America's joint team that will follow us in service to the 
Nation. We appreciate your unfailing support to the men, women 
and families of our Air Force, and I look forward to your 
questions.
    Mrs. Davis. Thank you very much.
    [The prepared statement of General Newton can be found in 
the Appendix on page 110.]
    Mrs. Davis. We certainly appreciate all the leadership that 
you have all brought, and I want to just let you know you have 
been so good about keeping within those time frames. At the end 
of our discussion, I want to invite you to share with us any 
additional thoughts that you have that might not have been 
covered as we entertain a number of questions from the members. 
Thank you for that.
    One of the things that we are obviously very concerned 
about is, as you work within the budgets right now, are you 
being asked to operate recruiting and retention below the 
levels of 2008 and even below the levels perhaps of the first 
few months of fiscal year 2009? Are you being stalked, as we 
said earlier? And how comfortable are you with that? Do you 
think that we are in a position so that you are able to reduce 
those budgets? And, more importantly, whether or not you feel 
that the emergency supplementals will be required to help you 
out as we go along here? Where are you? Are you feeling that 
this is going to be something that is actually going to cut 
into your ability to do your jobs properly?
    Dr. Gilroy, do you want to start? General Rochelle.
    General Rochelle. That is a fairly wide-ranging question, 
Madam Chair. Let me respond to it in this way.
    First of all, the wisdom and the advice given by this 
subcommittee, and I would also mention the appropriations 
committee as well, to migrate recruiting and retention 
completely into the base a few years back was wise counsel. We 
are on track to do that in fiscal 2010. Having said that--
completely, I should say, across all components in fiscal 2010. 
Having said that, we have not significantly begun to throttle 
back yet, but we obviously will have to in terms of meeting end 
strength. That will not be constrained. That will not be a 
direct result of budgetary impacts in the Army.
    Mrs. Davis. General Coleman.
    General Coleman. Yes, ma'am.
    Ma'am, I believe that as we reach--we, the Marine Corps, 
reach our 202,000, which was a far-reaching goal, and to be 
able to reach it two years ahead of time, is a direct 
reflection on Congress' willingness and ability to provide us 
the incentives that we need. I think as we get closer and as we 
reach the 202,000, the big part of the assignment then is to 
shape the force the way we really actually need it to be. So I 
foresee that supplementals will certainly go away.
    I would, as a manpower person in the Marine Corps, in order 
to get those military occupational specialties that we need to 
reenlist, such as your linguists and your explosive ordnance 
personnel, we will need help. We will need continued help. But 
I think we fail you if we don't admit that, as we reach our 
goal, we would be able to throttle back somewhat, ma'am.
    Mrs. Davis. Admiral Ferguson, do you want to comment?
    Admiral Ferguson. The Navy takes a very tailored and 
strategic approach to both enlistment bonuses, retention 
bonuses. We look by skill set, by rating and specialty; and we 
have already taken actions, beginning in last September and 
again last month, to reduce or eliminate, for example, some 
selective reenlistment bonuses where we see individuals 
reenlisting at greater than required levels.
    So we feel very comfortable with the amount of support we 
have in the budget, but I want to assure you we have an ongoing 
practice of assessing and evaluating those levels and adjusting 
them in response to what we see happening in the force.
    General Newton. Madam Chairwoman, for the United States Air 
Force, we are very much focused on, obviously, our people and 
our people programs. So, as I'm sure the other services do, we 
do not separate, for instance, recruiting and retention and so 
forth. It is very much for, as you well know, we are on a glide 
path to reduce our end strength down to 316,600 on active duty 
rolls, where now our proposed budget now have us around 330,000 
active duty. So part of the challenge is to recruit to, not to 
a 316,000 number, but now to a 330,000 number, as well as 
retaining our men and women across the force.
    Generally, for recruiting, we feel very confident we are 
going to meet our recruiting goals. We also feel confident we 
will meet our retention goals through fiscal year 2009. But it 
is not just going after that end strength of 330,000. It is 
focused on again how we shape the force for doing specific 
tasks at hand not based on a legacy force of several years ago 
but, as we look forward, how do we shape that force to do what 
the joint warfighter requires. So we have set our priorities 
focused not only on across the force but some specifics and 
having clear insight into the data of who we need to maintain 
an active force.
    Dr. Gilroy. So, in sum, Madam Chair, the Department is 
indeed committed to eliminating the requirement for 
supplemental funding for recruiting. There will be a transition 
period required to do this, but the commitment is clearly there 
to make recruiting budgets and funding out of the base.
    Thank you.
    Mrs. Davis. And you have authorities within your budget in 
terms of those areas where you feel that you can ramp up 
bonuses and there is no problem with that, is that correct?
    Admiral Ferguson. We have the flexibility we need.
    Mrs. Davis. Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman.
    General Rochelle, the Army is to be commended for very 
likely achieving its accelerated manpower growth by the end of 
the year.
    Also, I have been very impressed by the significant 
resources for the Wounded Warrior program. I have had the 
opportunity to see the facilities, the dedicated personnel, 
particularly at Walter Reed at Bethesda, at Montcrief Hospital 
at Fort Jackson. It is wonderful to see the attention given to 
our heroes.
    But with the objective of 547,400, what is the status of 
providing for deploying units and maintaining proper personnel 
for such crucial programs as the Wounded Warrior program?
    General Rochelle. Thank you for your question, Ranking 
Member Wilson.
    We are absolutely committed to our wounded warriors. As I 
said in my oral statement and as you certainly may have already 
found in my written statement, that is a commitment that is 
immutable. Our Fragmentation Order Number Four, which was 
recently staffed, will move us closer to being able to take our 
wounded warriors from our reserve components as well as our 
active components and move them closer to family member or to 
home, thus reducing the strain on the facilities and the 
infrastructure of which you spoke but, at the same time, 
providing a better environment for the soldier in which to 
heal.
    Today, our wounded warrior population is down from a high 
of roughly 12,000 active, guard and reserve to 9,000 and 
declining even further both as we ramp up and continue to 
provide the best medical care we can and the best medical care 
on the planet to our wounded warriors.
    With respect to readiness, we will continue to ensure 
through active retention, which I spoke in my oral statements, 
as well as recruiting to provide our deployers with the 
qualified soldiers, the best-trained, best-equipped, and best-
led to serve on our front lines.
    Mr. Wilson. Additionally, General Coleman, the success of 
the Army, the success of the Marine Corps in achieving the end 
strength of 202,000--and nothing is more inspiring than going 
to Fort Jackson or to Parris Island to see the young people 
graduating, to see the families and the success, but is 202,000 
sufficient for the threats that our country faces in the 
future?
    General Coleman. Yes, sir, we believe that as when General 
Conway, the Commandant, came on board what he wanted to do was 
right size the Marine Corps. And we felt that 202,000 was the 
right-size, the right number to right-size the Marine Corps to 
allow us to do the things that we aren't able to do right now 
as we fight the war in Iraq and Afghanistan. As we get to that 
number, we feel that 202,000 is, in fact, the correct number to 
allow us to fight and train for the next fight.
    Mr. Wilson. And, for both of you, I would like to commend 
you on what is being done for families. With the highest 
percentage ever of married troops, families are truly given a 
priority in housing, on schools, day care. Thank you for what 
you have done.
    For Admiral Ferguson and General Newton, the Navy and the 
Air Force end strength, there has been a decline over the years 
prior to 2008 but now there is an increase in end strength; and 
the question would be, should the end strength, should manpower 
be increased, or should there be more emphasis on 
modernization? And if each of you could answer that.
    Admiral Ferguson. Representative Wilson, the challenge that 
all the services face and the Navy in particular is we have to 
balance the capitalization and replacement of equipment with 
operations and maintenance costs and depot maintenance, as well 
as repairs to existing facilities as well as the people 
accounts. And so when we looked at our end strength about six, 
eight months ago, we assessed that, due to the increased 
demands that were placed on us for the joint force for 
enablers, we decided to flatten out our descent and to 
stabilize; and we assessed that approximately 329,000 or so in 
the foreseeable future will provide us that adequate support 
where we can meet the joint force requirements and the 
operational force.
    General Newton. Also, in the United States Air Force, it is 
a balanced approach. As we put forth in our proposed end 
strength of 330,000, the issue is not so much the end 
strength--that is important enough--but also how are we going 
to shape that force and to compel that force to do what in 
support of the joint war fighter.
    We have put our priorities in terms of providing 
intelligence and surveillance and reconnaissance capabilities 
as we reinvigorate the nuclear enterprise towards irregular 
warfare, towards bringing back some more of our maintenance, 
particularly on our flight lines and so forth. And so, as we 
look towards this end strength, it is also how are we going to 
shape that force again over not only for the current fight but 
for future fights as well. And so it is indeed a balanced 
approach.
    Mr. Wilson. And thank you all.
    Mrs. Davis. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thank you, gentlemen, for being here today, for your 
testimony, for answering the questions, and for your terrific 
service to our Nation.
    I want to explore for my brief time here the issue of 
access of recruiters to colleges and to high schools. I have a 
couple of comments and then a question.
    The laws are different a little bit regarding college and 
high school, so my first question would be, what is your 
perception--and it can be any of you. We have sort of limited 
time. Maybe Dr. Gilroy or perhaps General Coleman or General 
Rochelle could address it. How is access to the colleges 
working out today? Is it restricting our ability particularly 
to recruit highly qualified individuals for the officer corps, 
for example?
    And then a more pressing concern is access to students in 
high school. As you know, there is some debate here in Congress 
and there are some proposals out there that would restrict 
access of recruiters to information; and recruiters would only 
be provided student information when parents give their written 
consent. So the point is, there are proposals out there; there 
are some different views. I would be interested in knowing what 
your perception is of how it is working now as far as access 
and what changes in the law such as I have just suggested what 
that might do.
    And I will yield to whoever would like to answer that 
question.
    Dr. Gilroy. Congressman Kline, I will begin and then yield 
to my colleagues as they choose.
    With regard to the college declinement first, as governed 
by the Solomon Amendment, clearly, there have been some cases 
in which access has been hindered to some extent or made more 
difficult than we would like. But typically what happens is 
that through diplomatic discussions between the services and 
OSD and the university or college, those differences seem to be 
eventually straightened out. So we are pleased about that. 
There is a mechanism in place which governs the discussions 
between the university leadership and the services and OSD.
    As you know, the Solomon Amendment provides for the 
violators of that law or amendment to become ineligible to 
receive Federal funds. We have two universities that fit that 
category today. They have not in the past received Federal 
funds, so it probably doesn't matter a whole lot to them. But, 
nonetheless, we enforce the law when it is appropriate to do 
so.
    With respect to access to high schools, again, we have a 
mechanism in place under the Hutchinson Amendment; and we have 
protection under the No Child Left Behind Act which provides us 
access.
    Now, all high schools, 22,000 of them roughly in number, 
are technically in compliance with that. But some go to lengths 
to limit access. Some teachers and guidance counselors will 
hand out opt-out forms to students and request them to fill 
them out before leaving class, for example. Or some will 
encourage anti-military groups to set up booths alongside 
recruiters. These, as I should categorize, are annoyances, to 
be sure, but typically we can work with the schools, the school 
districts, the superintendents and even the school board 
sometimes to iron out some of these differences.
    We think that the current law opt-out is very, very 
important to maintain. We will be very much opposed to any 
change which would yield to the so-called opt in arrangement. 
So that is particularly important to us.
    Mr. Kline. I'm about to run out of time here. Any of the 
rest of you have anything differ or modification to that? The 
concern would be in the opt-in is that you might lose access to 
a great many students and really have an adverse impact on 
recruiters. Is that the widely held view there? You can nod 
or----
    General Coleman. Yes.
    General Rochelle. That is certainly my impression, sir, 
yes.
    Mr. Kline. Thank you.
    Madam Chair, I yield back.
    Mrs. Davis. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair. Thank you to all of 
you for your service.
    I just have a question about dwell time; and I would like 
to get your thoughts on that, all of you, but in particular if 
I could begin with General Coleman and General Rochelle.
    Obviously, over the course of the past several years, that 
has been a very important issue, a lot of thoughts, a lot of 
ideas, some legislation proposed to increase dwell time because 
of the, obviously, the concern for retention of service members 
who are on multiple deployments. Generals Coleman and Rochelle, 
could you speak to that issue and what you see perhaps coming 
down the pike as far as any increased dwell time for active 
members, not to mention our reserve and guard as well?
    General Coleman. Yes, sir. Thank you for the question, sir.
    Sir, speaking for the Marine Corps, the dwell time is not 
yet where we would like it to be. That was part of the 
Commandant's call to increase the size of the Marine Corps so 
we could in fact right-size and do the dwell so that we could 
have a one to two for every month in the fight, another month 
home. We are not there yet, sir. We are getting closer. As we 
grow to 202,000, we believe by the end of this year, we will 
have increased our numbers by three battalions' worth of 
infantry battalions, which would certainly make a difference.
    But the point to remember is that when we in what we 
believe in July get to 202,000, some number of those Marines 
are at Parris Island. It takes about a year from the time a 
recruit gets to Parris Island to the time he or she gets to the 
fight. So relief is on the way, but we are not there yet, sir.
    General Rochelle. Representative Loebsack, let me first of 
all say I would not see the need for legislation with respect 
to dwell time which was embedded in your question. The Chief of 
Staff of Army and the Secretary of the Army are committed to 
balancing the Army, restoring balance to the Army no later than 
2011.
    What does balance mean? What it means basically is two 
years dwell for every year deployed for the active component, 
four years dwell for every year deployed for our reserve 
components. We are committed to that.
    Fundamental to achieving that is the growth of the Army, 
and I mean that in two sense--in two different terms. The 
first, of course, is the growth of the end strength, which has 
been spoken of already. But the other is the growth in 
capability and units able to answer the mail and the call for 
our Nation.
    Mr. Loebsack. Admiral Ferguson and General Newton, could 
you speak to that issue, too?
    Admiral Ferguson. For the Navy, the average dwell time in 
the units is an excess of two to one; and we very closely 
monitor those units that are under stress. For example, we have 
some squadrons of EA6B aircraft that are approaching one to 
one, but in no cases do we exceed one to one without the Chief 
of Naval Operation's (CNO) specific approval. And we also 
monitor the time in home port. So we feel we have very good 
control of the issue.
    General Newton. The Air Force would echo that. We are on 
much of an expeditionary footing in terms of being able to 
provide, again, airmen to whatever the joint fight may require. 
So it may be on an individual basis, a joint expeditionary 
tasking but also to the unit. But at this time we are not--we 
don't--are either involved with nor do we foresee a challenge 
or issues with dwell time.
    Mr. Loebsack. Thank you.
    Thank you, Madam Chair.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Thank you, Madam Chairman; and, to the panel, 
thank you very much for being here today. Thank you for your 
service.
    And, Dr. Gilroy, my question does, I think, impact on 
recruiting, especially. What are the number of military with 
Post-Traumatic Stress Disorder (PTSD)?
    Dr. Gilroy. I'm sorry, sir?
    Mr. Jones. What is the number of our troops--primarily, I 
guess, Marine Corps and Army--that have been verified by a 
doctor, whether it be Army or Navy, that have a mental issue 
called PTSD?
    Dr. Gilroy. I don't have those numbers with me, and I would 
like to take that back for the record to respond in full and 
accurate. Thank you.
    Mr. Jones. That is fair.
    [The information referred to can be found in the Appendix 
on page 205.]
    Mr. Jones. Again, the reason I'm bringing it up is because 
I do think it impacts on recruiting. The number that I have 
received is 42,000. That came from the Department of Defense.
    I think--and I want to bring this up before the committee 
as well as the panel--we have got some real serious issues with 
the policy that relates to those coming back from Afghanistan 
or Iraq that have been designated with the mental challenge 
known as PTSD. And mainly my colleagues, I'm sure, as I have, 
have been made aware of young men who are going into the 
military--and I actually read this letter on the floor of the 
House recently; I did not use the name of the mother or the 
young Marine--but going into the Marine Corps at 18, good 
student, Eagle Scout, grandfather was a Marine and fought in 
Vietnam. The kid had been to Iraq and Afghanistan a total of 
three times in both countries. Comes back, develops a problem 
of alcohol abuse. A Navy doctor--I have the report--recommends 
that he have counseling. Somewhere along the line the ball was 
dropped.
    And, actually, General Rochelle, working with a young lady 
from my district down in Georgia who is in the Army, a very 
similar situation.
    I think that somewhere along the way--and I'm not sure 
that, Dr. Gilroy, it is your responsibility, but somewhere 
along the way, the military has got to come together on this 
issue of PTSD. Because Joe Stiglitz, who wrote the book The 
Three Trillion Dollar War, has already said that the tsunami 
that is coming----
    And I do think this does impact on recruiting, quite 
frankly. Because if this mom is writing a Congressman--the only 
reason I'm involved is because he is stationed out in Camp 
Lejeune. But if this word gets out that the military wants you, 
but once you cannot do your job because of a mental wound then 
they don't need you, we have got to deal with this.
    And, again, I'm not sure this is your area of 
responsibility. But this is a problem that I think is going to 
impact at some point in time if we continue to build up in 
Afghanistan. And I'm not discussing that policy today, but if 
we do and we still have somewhat of a presence for the next 19 
months or 24 months in Afghanistan, there is still going to be 
fighting. We are going to see more and more of these people--
these young people coming back that have some type of mental 
challenge and some type of PTSD.
    And I hope that you will and this fine panel sitting here 
today will say that we need to review our policies. Because 
there is no reason to say to someone that has PTSD, we are 
going to discharge you for dishonorable discharge or misconduct 
and therefore you lose your benefits. And that is not helping 
society.
    Dr. Gilroy. You are absolutely right, Congressman Jones. 
That is a serious issue and one that I know my colleagues at 
the table have dealt with specifically. We take this extremely 
seriously. There is just no question about it.
    The impact that you imply on recruiting is clearly there, 
too. Because these young men and women who return as veterans, 
having served in theater, become ambassadors for us when they 
return to the community. So it is extremely important that we 
make sure that they are receiving all of the benefits to which 
they are entitled. So I will take that back with me with all 
earnestness and with the greatest amount of seriousness.
    Thank you.
    Mr. Jones. Madam Chairman, I will end on this. But, Dr. 
Gilroy, I really would like to have a discussion with you at 
some point in the future. Maybe you could get this situation to 
the right people and say we don't need to wait any longer on 
this. Because it is going to grow, and it is going to expand, 
and it is going to create more problems for this country but 
also recruiting.
    I yield back.
    Mrs. Davis. Thank you, Mr. Jones.
    I want to return to the issue I think that you have touched 
on a little bit, the fact that we have been able to reach our 
numbers in terms of end strength and early, but the second part 
of that is really to have the dollars available to do the 
training. I would like you to speak to that and whether you 
feel that there is adequate capacity there to do that. Are 
there slots available in training schools? We know that in some 
cases reserves do not have the ability to also participate in 
those training arenas. So I would like you to--where are the 
problems here that we are encountering and how concerned ought 
we to be about that?
    General Rochelle. Madam Chair, you have actually addressed 
or asked two or three questions in that single one, the first 
being resourcing. There is always tension between investment 
accounts, modernization, if you will, people and then, of 
course, operational tempo; and the Army balances that within 
its authorized hot line in order to do, as I said before, 
deploy the best-trained, the best-equipped and the best-led 
forces our Nation can deploy. That is our mantra, and we will 
do that.
    Your question also addresses reserve component; and I 
simply would like to point out that at the beginning of 2009 
the backlog for Army National Guard--I will mention Army 
National Guard; the Army Reserve does not have an appreciable 
backlog--was 28,900 soldiers who had yet to enter training, to 
become a full-up round, as we would say. The Army added 8,300 
seats to the Army National Guard's allocation of training 
seats, ostensibly reducing that backlog by the end of 2009 to 
no greater than 9,600. So it is a total force of approach we 
are taking.
    Mrs. Davis. Where do you anticipate, though, the problems? 
Because part of the difficulty is still that there is stop 
loss, is still an issue within the Army.
    General Rochelle. Stop loss is still an issue for the Army, 
and we are actively engaged----
    Mrs. Davis. Could you quantify that for us a little bit 
better in terms of those numbers and how that interfaces with 
the issue we are talking about?
    General Rochelle. Seven thousand stop loss today in the 
active component--bear with me one second--7,000 in the active 
Army, 1,400 in the Army Reserve, and 4,400 in the Army National 
Guard. And we are committed and we are actively working at at 
the senior levels of the Army to work our way out of stop loss.
    In the past, what I have been asked by this committee and 
others is, General Rochelle, is 547,400 enough? And my answer 
has always been, let us get there, and then we will see. 
Because we don't know what demand will look like. Well, as 
Representative Wilson mentioned in his opening statement, we 
are there. What remains the unknown today is the demand.
    Mrs. Davis. When can you anticipate that you think we will 
have fewer troops who are needed to fill in essentially some of 
those slots? Can you project that for us a little bit?
    General Rochelle. I am not sure I understand your question, 
please.
    Mrs. Davis. Do you have your own time line in when you 
would like to see us having far fewer troops that are part of 
stop loss, that are in units that are being pulled out 
essentially that are leveling and filling in those units? 
When--is there a time that we can anticipate that? Or where 
should we be? What would be the anticipated numbers even after 
we are able to have the end strength and the training following 
through in the kinds of numbers that we would like to see?
    General Rochelle. Relative to the demand I would submit 
that we are doing a near miraculous job of keeping stop loss to 
the low level that it is. Now any number of stop loss is an 
egregious number. But we are really--given the demand that is 
on the Army today, we are doing in my estimation, my humble 
estimation, a remarkable job of keeping it to the minimum 
number possible.
    To your specific question, going forward it depends upon 
the demand. And I can only say that since my time as the Army 
G-1 every estimate of declining demand has proven false.
    Mrs. Davis. I appreciate that.
    Mr. Wilson.
    Mr. Wilson. I just thank all of you for your hard work in 
providing opportunity for the young people of our country, and 
I look forward to the next panel which are Reserve units.
    But thank you very much, Madam Chairwoman.
    Mrs. Davis. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    I would just like to draw the obvious connection between my 
question and my good friend Walter Jones--Congressman Jones' 
question. Clearly, there seems to me to be an intimate link 
between dwell time and the lack thereof and issues of PTSD and 
strain on the family; and you are all very aware of that, 
obviously. And you know I'm really appreciative of the fact 
that Congressman Jones asked the question he did after I asked. 
We didn't coordinate it, but I'm really glad that he did. That 
we all have I think very similar concerns on this panel.
    I have another question but more controversial, perhaps. 
The end strength levels that we are talking about, the goals 
that we are talking about, were established prior to the Status 
of Forces Agreement (SOFA) agreement in Iraq, if I remember 
correctly. Prior to what appears now to be a serious drawdown 
of our troops in Iraq--again, fully aware that there will be 
other conflicts that we are going to ramp up some in all 
likelihood in Afghanistan, although that still remains to be 
seen just how much because the administration is conducting a 
strategic review of the situation there--do any of you foresee 
any modifications of the kinds of end strength numbers that we 
are now assuming we are going to need in the coming few years 
or so based on any potential strategic review of the situation 
around the world? Or are you just sort of assuming that we are 
going to continue to work along the lines that you are now 
working?
    Any thoughts on that from any of you.
    General Coleman. Sir, for the Marine Corps, I believe that 
the 202,000 is about right. When General Conway came in, his 
desire, as I said before, to right-size the force, was to 
ensure that we had the one to two dwell. But since this long 
war, the Marine Corps as a service has been able to fight the 
war and train for the war. But we have not done jungle 
training. We have not done cold weather training. We have not 
done fire exercises. We have only had the number of folks to 
fight, to come home, refit and go back.
    The 202,000 is to give us three mirror-image MEFs, marine 
expeditionary forces, so that we can do jungle training and 
cold weather training and do the things that we haven't done. 
So, until we know what is next, I would say that, yes, the 
202,000, we believe, 202,000 is correct; and I would be 
surprised if we went higher or requested higher or lower in the 
three- to five-year term, sir. That is just General Coleman, 
though.
    Mr. Loebsack. General Rochelle.
    General Rochelle. Sir, you are asking a strategic risk 
question; and my first response to it would be I'm optimistic 
that the upcoming Quadrennial Defense Review (QDR) will take 
that into account and then, of course, make recommendations 
with respect to service sizes for all of us that are prudent.
    You are also asking a question in more tactical sense as 
you say deliberations; and my answer would be, except for 
ongoing discussions on the subject of stop loss and how the 
Army might come out of stop loss, no, there is nothing beyond 
547,400.
    Admiral Ferguson. For the Navy, we continuously review our 
end strength in terms of the requirements; and it is an issue 
of balancing fleet manning of the ships and the support 
personnel needed to operate the force, combined with our 
contribution to joint enablers. And so we, within that 
calculation, assume a level of risk, as General Rochelle 
referred to, that we assess in those manning levels and that 
the nature of our demand is support personnel in theater. We 
see that demand continuing, and so we feel comfortable with the 
levels that we proposed for the foreseeable future.
    General Newton. From an Air Force standpoint, much like as 
Admiral Ferguson just mentioned, it is a balanced approach. 
Again, you cannot predict the future; and certainly the enemy 
gets a vote in that regard. But as we look across our end 
strength, as I mentioned, our proposed end strength from 
330,000 from an active duty sense, we in the United States Air 
Force also take a total force end strength as well in terms of 
being in very synchronized and integrated with our active duty, 
our Guard and our Reserve.
    That said, again, what you need the United States Air Force 
to be engaged with is, sure, in Operation Iraqi Freedom (OIF) 
and Operation Enduring Freedom (OEF) particularly on irregular 
warfare but also across a spectrum of conflict as well. So we 
are again focused on that balanced approach to how we not only 
look at our end strength but again how we shape that force 
inside those end strength numbers.
    Mr. Loebsack. Thanks to all of you.
    Dr. Gilroy. In summation, General Rochelle mentioned the 
forthcoming Quadrennial Defense Review, and we await that 
document, clearly, under the new Administration which will 
indicate to us the planning that it has for contingencies. And 
it will provide alternative scenarios, so that we go with what 
we know right now as the current planning and await that 
document.
    Mr. Loebsack. Thank you, Madam Chair.
    Mrs. Davis. Thank you. Mr. Jones.
    Mr. Jones. Thank you, Madam Chairman.
    General Rochelle, I believe your answer to Madam Chairman 
Davis about the stop loss, would you repeat the numbers? I 
think you said 7,000. I was a little bit late in listening to 
your response of 1,400, I believe you said, reserve, and 4,400 
national guard. Is that right?
    General Rochelle. Those are the correct numbers, sir.
    Mr. Jones. I will never forget going to Walter Reed years 
ago with Representative Gene Taylor, I believe. And a kid from 
Florida was in the hospital, and he was very, very--he was a 
sergeant in the Army. And as we got ready to leave, we talked 
to him, we thanked him. And he had his fiancee sitting at the 
end of the bed, and he asked us about stop loss. He said, who 
has this authority? Is it the Congress, or is it the Department 
of Defense? And one of us said, well, the Department of Defense 
has this authority. Then he pulled the sheets down, and both 
legs had been blown off. He was in the sixth week or seventh 
week of being stop lossed.
    It has always bothered me, and I don't know why I didn't 
think of it but I thank the chairwoman for doing it. How is 
that soldier notified that he is going to be extended? How does 
that process work? Are they told two months out, three months 
out? Is it an orderly process? Or are they told within three 
weeks: We have decided that you are not going to be going home? 
How does that mechanically work?
    General Rochelle. Stop loss goes into effect for a unit 
that has been alerted to deploy, whether it is a guard unit or 
reserve unit or an active component unit, in effect, 90 days 
prior to the latest arrival date for the unit.
    Now, that doesn't mean that on that date every soldier in 
that, take a brigade combat team, is effectively stop lossed. 
What it means is that as that brigade deploys or as that unit 
deploys, the members of that unit who arrive at their 
expiration term of service throughout the 12-month or 15-month 
deployment will effectively go into the condition we refer to 
as stop loss.
    You posed the question in the point of the authority. And 
the authority is inherent and clearly stated in the enlistment 
contract that it is the authority of the Federal Government, of 
the national command authority to employ stop loss.
    Mr. Jones. General, this might not be fair. But this has 
become a very, very--it has become a national issue of great 
concern to many people. And I realize contracts, and maybe the 
majority of people that read the contracts, they read them. I 
haven't read as many insurance policies as I should and I sign 
the dotted line. But that is my problem, not anybody else's.
    But I guess the point I am trying to get to is that maybe 
the Congress and maybe most of my colleagues wouldn't agree. 
But maybe we ought to have some law or something that says that 
if the DOD is going to have the authority, that they would have 
to come to an Armed Services Committee and say that our 
situation with our ranks are so desperate that we are going to 
have to institute the policy of stop loss. I think that would 
give more confidence to the American people than an 
Administration--I am not being critical of the previous, and 
the new one hasn't been in but six weeks so I can't be too 
critical anyway. But the fact is that when this policy went in 
place a few years ago, it was almost like the soldier and I 
guess the Marine as well, but the soldier primarily was 
somewhat caught off guard. Yes, it is in the contract, but the 
contract, they either forgot it or they didn't read it.
    I think on that kind of issue, that if America is going to 
send their kids to die and be wounded, that the Congress ought 
to be more involved. And I am not saying that the Congress, but 
if the DOD Secretary came in here and said to an Armed Services 
Committee, listen, we are in dire situation. We have got to put 
a stop loss program in place, I think the Congress would give 
that authority. But the way that this had worked in this war in 
Iraq especially, I think truthfully it really caught a lot of 
families way off guard.
    And I don't expect you to make a decision whether Congress 
should be involved or not, but I think that Congress itself 
ought to look into this and really discuss what is our role, 
what is the role of the Department of Defense. Because what it 
is is a draft, anyway, or it is an extension of somebody's 
service. And maybe they should have known it, but many times 
they forgot it or didn't know.
    I yield back. Do you want to answer?
    General Rochelle. Well, sir, I would like to comment, if I 
may.
    First of all, I would like to reiterate that we are 
committed, as soon as demand permits, to get the Army out of 
stop loss.
    From a personal perspective, I would like you to know that 
just a few short years ago, to the point of recruiting and 
impacts on recruiting, indirect impacts, just a few short years 
ago I had the privilege of leading the Army's recruiting force 
for almost four years, starting roughly 100 days after 
September 11th. I can tell you that every time the Army 
reemployed, tightened, or tinkered with--that is a technical 
term--stop loss, I felt it in recruiting. We don't like it. We 
would be off it today if the demand permitted so. It simply 
doesn't. And it is a technical provision of the enlistment 
contract that applies to all of us. We all signed the same 
enlistment contract, Army, Navy, Marine Corps, Army Reserve and 
Army National Guard.
    To our soldiers, I would say--and I am always cognizant 
that they too are watching these hearings and these 
proceedings--we will get off stop loss as quickly as we 
possibly can. We are committed to that.
    Mr. Jones. Thank you, sir.
    Dr. Gilroy. Congressman Jones, let me add something from 
the Office of the Secretary of Defense perspective, and to 
support General Rochelle in his views about ending stop loss as 
soon as practically possible.
    Secretary Gates has gone on record as being committed to 
ending stop loss as well; and of course he has been in serious 
discussion with the Army leadership, including General 
Rochelle, within the last two weeks on specific proposed dates 
for both the active Army, the Army Reserve, and the Army 
National Guard, about when it would be practically reasonable 
to expect the elimination of stop loss. There is great 
commitment within the DOD leadership as well as the Army to end 
this, and we are very cognizant of the political ramifications 
to this policy as well, of course, as the military 
ramifications for keeping it.
    The Secretary is also committed to the payment, given new 
authorities, for the payment to those who are engaged in stop 
loss.
    So there is a lot of discussion ongoing at the present 
time, and I expect within several weeks we will have some 
official notification of the Department's plans for stop loss.
    Mr. Jones. Thank you, Madam Chairman.
    Mrs. Davis. Thank you. You can tell there is great concern 
on the committee on that issue.
    I know that we have our next panel and we want to move to 
that. But before I do that quickly, and I also said that I 
would give you a chance to make sure that you leave us with a 
message or thought, a concern, as we wrap up. As we will be 
looking forward to fiscal year 2010 budget, we know that it 
does not today, as I understand it, represent the enhanced .5 
pay for the military above the Employment Cost Index (ECI). And 
I wonder whether you have, how do you see that? Do you think 
that that is going to be a concern in terms of recruiting? 
Would you like us to know about that issue?
    Dr. Gilroy. I think that the 2.9 percent pay raise, which 
is equivalent to the Employment Cost Index as published by the 
Bureau of Labor Statistics, is appropriate and fair for this 
fiscal year. We would not as a Department ask for the ECI plus 
one-half. The reason being is not for budgetary purposes, but 
simply because the 2.9 percent keeps us at the 70th percentile 
of civilian earnings, which in the ninth quadrennial review of 
military compensation established as the reasonable and 
appropriate earnings profile for military members commensurate 
with the earnings profile of civilians with the appropriate 
education and experience. So we are happy with the 2.9 percent. 
We would not think it necessary to go anything above that.
    Mrs. Davis. It is a departure from where we have been, and 
so I think that will get everybody's attention.
    Dr. Gilroy. I understand that.
    General Rochelle. I will respond to your secondary 
question, which is impact on recruiting. I would predict none.
    General Coleman. I would echo that, ma'am.
    Admiral Ferguson. I would assess minimal to no impact on 
recruiting.
    General Newton. Agree.
    Mrs. Davis. Thank you. The other issue, and I know we have 
talked about it before, is just your ability to recruit within 
medical professionals. And is that taken care of through 
bonuses that you are able to offer? And do you believe that 
there are other issues that would impact that? And I am 
curious, but I think I don't want to ask you now because we 
want to move on, is what solutions you have where in fact that 
opportunity for recruiting medical professionals is a very 
difficult one given the situation today. Anything we should 
know about, quickly?
    General Rochelle. I would like to give you a very quick 
response. There is a critical shortage of medical professionals 
across our Nation. I am reminded of our book, Will the Last 
Physician Please Turn Out the Light? The authorities given the 
Army, the services, I should say. The authorities given the 
services to use innovative approaches, especially those 
innovative approaches that allow us to offer things that are a 
little bit exotic to medical professionals is very, very 
critical. And I would simply add that those expire at the end 
of 2009.
    Mrs. Davis. Thank you. And I know throughout the services 
that is an issue. Is there anything that you wanted to add 
quickly to the testimony this morning that we will want to know 
more about?
    General Coleman. Yes, ma'am. I would, if that is okay.
    Ma'am, the Commandant's greatest challenge is to fight and 
win the war, and his second priority is to take care of his 
families. And I would like to personally thank you and the 
other Members of Congress for what you have done to ensure that 
we are able to take care of our families. And it has been 
absolutely phenomenal the way that the response has come in to 
taking care of our families.
    And secondly, on a personal note, last year you and 
Congressman Kline spoke to me about casualty reporting. And I 
think the Marine Corps has it fixed. And I think, on behalf of 
the families, thank you for jabbing your finger in my chest.
    General Rochelle. I would not like to miss this opportunity 
on behalf of the 1.1 million men and women who served in the 
United States Army and their families to thank this committee 
for its magnificent support.
    Dr. Gilroy. I, too, share the General's view of thanking 
this committee for unfaltering support over the years from both 
sides of the aisle. It is absolutely critical that we have that 
support, and you have never, ever let us down.
    As a closing thought, however, let me end where I began. To 
the extent that there are pressures for budgetary cuts in the 
light of our recruiting and retention success, our recent 
success, let us go about them judicially, carefully, slowly, 
and base them on empirical evidence. Thank you for your 
support.
    Admiral Ferguson. I would also like to echo the support 
from the Navy for the committee and the Congress. I personally 
am in awe of the performance of our sailors around the globe. 
They are the finest Navy that I have seen in my career in 30 
years.
    We must continue to make investments in the critical skills 
that we require in a very high-tech and demanding Navy, such as 
a nuclear power, such as in medical and dental, as you 
mentioned, our SEALs and special operators that are at the tip 
of this spear in this war we are engaged in. And we will 
continue to do that and ask for your support in that.
    In the upcoming budget, as you mentioned, we will take a 
balanced approach in looking at our investment accounts, our 
readiness and maintenance, as well as personnel.
    And then, lastly, you will hear my counterpart Dirk Debbink 
in the next panel. But we are driving to a seamless total force 
in the Navy, and we could not achieve a lot of the missions we 
do without our reserve component. And I would just like to 
thank them for all they do for the Navy.
    General Newton. In closing, thank you also on behalf of the 
United States Air Force. Our topic today has been recruiting 
and retention and end strength and so forth, and this is I 
believe what you have heard from my colleagues here is it is a 
balanced approach. It is a balanced approach that is clearly 
integrated not only from the services, but speaking for the 
United States Air Force integrated it is a total force approach 
as well.
    As we make those contributions to the joint fight, we have 
got to be balanced in our approach to not only today's fight in 
our contributions to the joint and the coalition warfare, but 
also how we prepare for the future. Those unknowns out there 
really I think behooves all of us in this room to make sure 
that we focus on that joint contribution.
    The last point is, it is not just our men and women in 
uniform and our civilians, but our family members as well. That 
balanced approach, you will see from the United States Air 
Force, and I am sure speaking for my colleagues here, it is a 
balance. I am challenged by that, not only focusing on those 
who volunteered to serve their country, but their loved ones, 
their family members are serving alongside, and we need to pay 
the same amount of attention and put the same priorities in 
their service as well.
    Mrs. Davis. Thank you. I want to thank you all, 
particularly your focus on families. We will have a hearing on 
family support as well. We will have some families that we want 
to be here and testify. We know that there are some remarkable 
programs around the country where people have really taken on 
the delivery of services to families in a way that I think 
values them greatly, and we want to look at some of those 
programs as well. But thank you so much. We appreciate your 
work and certainly the extraordinary service of the men and 
women of our country. Thank you very much. And we look forward 
to the next panel.
    I want to invite our panel to please take your seats. We 
are delighted to have you with us. Thank you very much for 
being here. I want to introduce our next panel. And you might 
have--if you were listening in, I think we did a good job of 
keeping within three to four minutes at the extent, and that is 
very helpful to us. If you can continue that, it would be 
great. And we will go back and ask you at the end if there is 
anything that you--a message that you really want to leave us 
with. We are not looking for thanks, actually. What we are 
looking for is just to be sure that we have an opportunity to 
focus on an issue that perhaps didn't come up in the course of 
discussion.
    I want to introduce now Lieutenant General Clyde Vaughn, 
Director of Army National Guard; Lieutenant General Jack 
Stultz, the Chief of the U.S. Army Reserve and Commanding 
General for the U.S. Army Reserve Command; Vice Admiral Dirk J. 
Debbink, the Chief of Navy Reserve; Lieutenant General John 
Bergman, Commander of Marine Forces Reserve; Lieutenant General 
Harry Wyatt, Director, Air National Guard; Lieutenant General 
Charles E. Stenner, Jr., Chief, U.S. Air Force Reserve; and 
Rear Admiral Daniel May, Chief, Coast Guard Reserve Forces. 
Thank you all for being here.
    Please proceed, General Vaughn.

  STATEMENT OF LT. GEN. CLYDE A. VAUGHN, ARNG, DIRECTOR, ARMY 
                         NATIONAL GUARD

    General Vaughn. Chairman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee. Mike Rochelle, my 
buddy, just talked about the 1.1 million members of this great 
Army. I want to introduce one person. Behind me is the 
Outstanding Noncommissioned Officer (NCO) of the Year for the 
entire 1.1 million soldier Army, and it is a National Guardsman 
from the State of Montana, Staff Sergeant Michael Noyce Merino.
    Mrs. Davis. General, I just heard that perhaps you are 
going to be leaving in about 60 days. Is that correct?
    General Vaughn. I hope so, if I get the right support from 
everyone.
    Mrs. Davis. Well, we wish you well. We thank you for your 
tremendous service.
    General Vaughn. It has been a privilege to serve as the 
Director, and it has really been an honor to come over here and 
testify. I assure you that we talk to all the youngsters about 
what a great privilege it is to sit here and take these 
questions from you and to help shape this force.
    Along that same vein today, we find ourselves at 367,000 
soldiers in the Army National Guard, significantly over 
strength, a far cry from the 2005 years that we all remember 
when we were 20,000 soldiers under strength. And you all had so 
much to do with that.
    The pieces that I would talk to today as we go forward is 
the fact that we are going to continue to reshape our Guard in 
terms of capability as we bring our end strength down to the 
authorized numbers. We are on track to try to do that. This is 
a new era for us. We have never been in this position with this 
kind of strength. This is the strongest Army Guard we have ever 
had. We have never found ourselves over strengthed like this, 
and we are in the position that we can actually, at the same 
time trying to get to authorized levels, grow the readiness of 
our force, and we are going to take that challenge on. So thank 
you very much.
    I will shorten the rest of it, and I look forward to your 
questions. Thank you.
    [The prepared statement of General Vaughn can be found in 
the Appendix on page 122.]
    Mrs. Davis. General Stultz, please.

 STATEMENT OF LT. GEN. JACK C. STULTZ, USAR, CHIEF, U.S. ARMY 
   RESERVE AND COMMANDING GENERAL, U.S. ARMY RESERVE COMMAND

    General Stultz. Madam Chairman, Congressman Wilson, and 
others, thank you for the opportunity to come and speak to you 
today. I am honored to represent over 202,000 Army Reserve 
soldiers. And just as my friend Clyde Vaughn has said, I echo 
the comments that he has made; the growth in our force has been 
tremendous.
    When I took over as Chief of the Army Reserve back in 2006, 
we were at about 186,000. Today, we are over 202,000. That is a 
growth of 16,000 in a little under three years. So, a 
tremendous success in our recruiting and retention, which is a 
byproduct of the support we have gotten from Congress, the 
incentives we have been able to pay our soldiers to recruit and 
retain them. But, more importantly, it is 16,000 growth of the 
right type of soldiers. It is the quality of the force that I 
am in awe of today in the Army Reserve, great men and women who 
leave their jobs, leave families, and volunteer to go and risk 
their lives.
    And just as most recently when I was visiting soldiers over 
Christmas in Iraq and talking to a young E-4 from Maryland, I 
asked him what he does back home, and he says, ``I am finishing 
my degree.'' And I said, ``What are you majoring in?'' And he 
said, ``I am getting a doctorate in physics.'' That is what we 
have got out there. It is the right 16,000 that we have grown, 
and we are well on our way to meeting our end strength of 
205,000, 206,000 by the end of this fiscal year.
    So I am proud to represent those soldiers, and look forward 
to your questions.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 134.]
    Mrs. Davis. Thank you. Admiral Debbink.

   STATEMENT OF VICE ADM. DIRK J. DEBBINK, USNR, CHIEF, NAVY 
                            RESERVE

    Admiral Debbink. This is my first appearance before 
Congress, and I want to begin by thanking you for your 
fantastic support for the 67,000 Navy Reservists and, 
importantly, their families that I represent.
    There would be three things I would like to try to 
communicate with you today, and first and foremost in my 
written testimony I go into quite some length as to what we are 
doing today for our Navy and by extension our Nation.
    As I testify this morning, Navy Reserve SEALs are operating 
in every corner of the world. And you see our sailors in the 
news, but you don't see the moniker ``reserve'' down at the 
bottom because, as Admiral Ferguson testified just previous to 
this, we are a fully integrated force and utilize a total force 
concept of operations.
    From helping to certify our strike groups as they deploy 
from home base to our Navy SEALs that are literally integrated 
with the teams in Iraq and Afghanistan and elsewhere around the 
world, we are making significant contributions across the full 
spectrum of naval and joint operations. We are also linked 
closely with our active component and the civilians that make 
up our Navy, and we are constituting a total force to execute 
our maritime strategy and national tasking.
    The second thing I want to tell you about is just the 
outstanding sailors who are doing our work of our Navy Reserve, 
and provide a quick assessment on our recruiting, retention, 
and end strength.
    The Navy Reserve has seen end strength fall nearly 25 
percent since 2003. We are executing end strength right now of 
just under 67,000 by the end of this fiscal year.
    Improved retention, lower attrition, and successful 
recruiting has left us in the position of enacting force 
shaping measures in order to maintain specific skill sets and 
the experience that satisfy our total force demand.
    Central to our manpower strategy is the establishment of a 
true continuum of service culture. We believe this will offer 
our sailors the opportunity to be truly a sailor for life no 
matter what life brings at you, that they will be able to flow 
back and forth between the active component and the Reserve 
Component, satisfying their personal needs, their family needs, 
while at the same time allowing us to make sure we maintain the 
proper skill sets in our own total Navy force.
    Finally, a bridge quick from what we are doing and who is 
doing it to what I believe is the real value proposition of our 
Navy Reserve. We are proud of what we bring to the fight today. 
We are also acutely aware that we have a long-term commitment 
to the Navy and our Nation, and we are trying to demonstrate 
daily the incredible return on investment that the Navy Reserve 
represents. We have proven ourselves to be a ready, responsive, 
and adaptive operational force while maintaining the strategic 
depth. This is an important and I believe a very meaningful 
time for us all to be serving in our Nation's defense and 
especially as a Reservist.
    I thank you for your continued support, demonstrated 
commitment to our Navy Reserve and Navy, and I look forward to 
your questions. Thank you very much.
    [The prepared statement of Admiral Debbink can be found in 
the Appendix on page 146.]
    Mrs. Davis. Thank you. General Bergman.

STATEMENT OF LT. GEN. JOHN W. BERGMAN, USMCR, COMMANDER, MARINE 
                         FORCES RESERVE

    General Bergman. Good morning, Chairwoman Davis, 
Congressman Wilson, distinguished members of the panel, the 
committee. Thank you, thank you on behalf of the roughly 
100,000 Marines, Marine Forces Reserve, their families and, 
equally important, their employers across the country.
    The fact of the matter is for the last two years the Marine 
Corps Reserve has not made their end strength numbers. I would 
like to put three footnotes on that statement, if you will 
allow me to.
    First, as you heard General Coleman say, in the effort to 
build the active component Marine Corps to 202,000, we have 
participated in that as the Marine Corps Reserve. Roughly about 
1,950 Reserve Marines have reaffiliated with the active 
component. That is footnote number one.
    Number two, during the past three years we have cadred 
approximately six units of 4th Marine Aircraft Wing to support 
the aviation transition plan to the V-22 Joint Strike Fighter 
Yankee and Zulu Cobras, both with people and airframes. That 
equated to about 600 still uninvested billets that will be 
invested within the next 12 to 18 months; in other words, 600 
more folks in the units.
    And, third, I think you would all agree there is nothing 
more adaptable than the marine in the fight. And that is true 
today. What lags sometimes is the policies that support that 
marine in the fight.
    The operational reserve is now a reality. About 80-plus 
percent of the Marine Corps Reserve paychecks are an 
operational reserve. We are now just beginning to catch up, as 
General Coleman referred to, focusing on Marine Corps end 
strength issues with the policy that will allow us to man, 
equip, train, and, more importantly, fund.
    I have a copy of this fourth generation model slide I would 
like to leave all of you with at the end of this, because this 
talks about, most importantly, the five-year dwell time that 
will allow us to manage our force, train our force, and be 
predictable for those marines, their families, and employers, 
over a six-year cycle. I look forward to your questions.
    [The prepared statement of General Bergman can be found in 
the Appendix on page 165.]
    Mrs. Davis. Thank you. General Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, ANG, DIRECTOR, AIR 
                             GUARD

    General Wyatt. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee, staff, it is my 
honor and a privilege to testify on behalf of the 106,700 
members of the Air National Guard. Actually, our strength right 
now is approaching 109,000. We have had a very good recruiting 
year, thanks to the support of Congress, the American people, 
and the United States Air Force. 106,700 is our authorized 
strength, the airmen deployed forward in support of our United 
States Air Force and our combatant commanders, but also 
deployed forward in the 50 states, territories, and the 
District of Columbia as we support our governors and the 
President.
    It is an honor and privilege to be here today and talk 
about some people that I am extremely proud of, members of the 
Air National Guard, and look forward to your questions. Thank 
you for this privilege.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 172.]
    Mrs. Davis. Thank you. General Stenner.

STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., AFR, CHIEF, U.S. 
                       AIR FORCE RESERVE

    General Stenner. Madam Chairman, Congressman Wilson, and 
committee members, fellow service members, thank you very much 
for the opportunity to be here to address you on these 
important matters of recruiting, retention, and end strength.
    Before I say my remarks, I would like to take the 
opportunity to introduce you to Chief Master Sergeant Troy 
Macintosh right here, who is with me today. Chief Macintosh 
serves as the Air Force Reserve Command Chief, and helps me 
keep track of the issues regarding the welfare, readiness, 
morale, and progress of the command's outstanding airmen. 
Thanks for being here today, Chief.
    Members of this committee, I am indeed honored to be here 
today to advocate for the interests of our more than 67,000 
citizen airmen. Our airmen have been continuously deployed and 
globally engaged in combat missions for over 18 straight years. 
They are not only responding to the asymmetric threats we 
currently face, but stand ready to respond to conventional 
threats as they arise. By any measure, our airmen are 
performing admirably.
    The Air Force Reserve is a repository of experience and 
expertise for the Air Force. We are a mission ready force, 
training to the same standards, and maintain the same 
currencies as those of the regular Air Force. And we are a cost 
effective force, comprising nearly 14 percent of the total Air 
Force authorized end strength for only 5.3 percent of the 
military personnel budget, or roughly 3.5 reserve airmen to one 
regular airman.
    Our priorities are clear, and they fall within the Air 
Force priorities overall. We must provide an operational combat 
ready force while maintaining a strategic reserve. We must 
preserve the viability of the triad of relationships Reservists 
must sustain with their families, the Air Force Reserve, and 
their employers. We must broaden total force initiatives, and 
we must modernize our equipment and facilities. Each of these 
priorities is vital to preserving our value and sustaining our 
forces.
    As we prepare for the future, we will continue to transform 
our force to meet the requirements of the Air Force and the 
joint warfighter. Over time, we have evolved into an 
operational reserve, but we must not lose sight of the fact 
that we, along with our Air National Guard brothers and 
sisters, provide a strategic capability as well, and must be 
available in times of national emergency.
    For us to serve as both a strategic reserve and provide 
operational forces for current and increasing requirements, it 
is critical that we find the right balance between the two and 
have sufficient manpower and resources to support those 
requirements. Just as important as having the right manpower 
and resources, we must ensure that the right people with the 
right skills at the right time to meet Air Force needs are 
available. We are evolving our force mix to ease the strain on 
our stressed career fields and to grow into emerging mission 
areas, including the nuclear enterprise, cyber space, 
intelligence, surveillance, reconnaissance, unmanned aerial 
systems, and space, to name a few. Opportunities still exist to 
become more efficient and effective, and we will work as a 
total force to determine the right balance and mix of regular 
guard and reserve in these new mission areas.
    In conclusion, I would like to thank the members of this 
committee for the authorization and legislation to provide our 
readiness and combat capability. We appreciate your unfailing 
support to the men and women of the Air Force Reserve, and I 
look forward to working with each of you in the future on the 
challenges facing the Air Force Reserve, the Air Force, and the 
Nation.
    I stand by for any questions you may have.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 178.]
    Mrs. Davis. Thank you. Admiral May.

STATEMENT OF REAR ADM. DANIEL R. MAY, USCG, CHIEF, COAST GUARD 
                         RESERVE FORCES

    Admiral May. Good morning, Chairwoman Davis, Congressman 
Wilson, and distinguished members of the House Armed Services 
Committee. It is truly a pleasure to have this opportunity to 
appear before you today to discuss the Coast Guard Reserve, its 
contribution to our national defense and homeland security, and 
the issues that face the men and women of our Coast Guard 
Reserve.
    I would like to thank the committee for tackling the tough 
military personnel issues, and congratulate you on the 
legislation that you have done to improve the lives of all of 
our members. I would also like to thank the reserve component 
master chiefs, reserve component sergeant majors, and reserve 
component chief master sergeants that are all with us here 
today.
    As you know, the Coast Guard is one of our five Armed 
Forces of the United States, and has a long and distinguished 
history of service at home as well as abroad.
    Because of its mix of military and civil law enforcement 
authorities, the Coast Guard is uniquely positioned to serve as 
the lead federal agency for maritime homeland security while 
also acting as a supporting agency to the Department of 
Defense. In fact, over 80 percent of our 8,100 Selected Reserve 
force is directly assigned to Coast Guard shore units, where 
reservists hone their skills through classroom instruction and 
on-the-job training side by side with their active duty 
counterparts. The remainder of our Selected Reserve force is 
dedicated primarily to supporting our defense operations.
    The integration of our active and reserve components enable 
us to respond quickly when and where operational reserve forces 
are needed, aided in part by the authority that is vested in 
the Secretary of Homeland Security under title 14 of the U.S. 
Code. Under title 14, the Secretary may recall reservists for 
up to 30 days at a time for domestic contingencies, including 
natural and manmade disasters and terrorist attacks. This 
unique authority helped facilitate a rapid Coast Guard response 
during Hurricanes Katrina and Rita.
    As one of the Armed Forces, the Coast Guard also plays a 
significant role in the homeland security and in our national 
defense. Reserve components serve as an absolute force 
multiplier for our entire force.
    After the tragic events of September 11, and in the wake of 
our largest mobilization of our Coast Guard Reserve since World 
War II, nearly 50 percent of our force, we have examined all of 
our systems, including recruiting, training, mobilizing, and 
demobilizing our reserves.
    We also undertook a recent comprehensive review of our 
Coast Guard Reserve that resulted in a policy statement that 
embodies the three core strategic functions of our Coast Guard 
Reserve; that being maritime homeland security, domestic and 
expeditionary support to national defense, and domestic or 
manmade natural disaster response and recovery.
    This policy statement provides a clear focus for our Coast 
Guard Reserve, and will ensure that we continue to have a well 
trained, ready force, with the right people, the right skills, 
and the right places to aid our Coast Guard force for any 
contingency.
    The Coast Guard is our Nation's premier maritime law 
enforcement agency with broad multi-faceted jurisdictional 
authority. It is on behalf of our men and women of the Coast 
Guard that I thank you for your continued support of the Coast 
Guard and the Coast Guard Reserve.
    Thank you again for the opportunity to appear before you 
today. I look forward to your questions. Thank you.
    [The prepared statement of Admiral May can be found in the 
Appendix on page 196.]
    Mrs. Davis. Thank you very much. Thank you again to all of 
you.
    I want to begin with the question that I asked the earlier 
panel; whether or not you believe that the budget managers will 
be looking very suspiciously perhaps at the budgets for 
recruiting and retention; and whether or not you are going to 
be able to do the work that needs to be done with lower budget 
levels. Could you talk about that, and whether you think that 
in the end you might need to lean on emergency supplementals as 
well to allow you to do the work that is at hand? Can you 
manage with those lower? I really want to know, really, how in 
fact you are being approached to deal with this issue.
    General Vaughn. Chairwoman, we were not successful over the 
last couple years of getting everything we needed into the 
base. I know in the first set of testimony you heard that. We 
are not crying about it, because we work awfully close within 
the Army, and they have helped us on this.
    Our view is that if we participate together with the Army 
solutions, we think, if we can get help out of this particular 
supplemental, then we can lower our bonuses probably. We will 
have to lower them in order to hit the authorized marks that we 
have got out there in front of us. But we think it is going to 
be substantial. But we can't do it alone. We can't do it 
without any help. And we have a promise from the Army to help 
us with this particular situation.
    General Stultz. I would just say that we in the Army 
Reserve during the past year have migrated a lot of our 
recruiting and retention incentives into our base. Still, we 
had to do some workarounds for additional funds as required. 
And I would be very cautious. As people look at the economy and 
say, well, you don't need all the incentives because the 
economy is in poor shape, I am not sure an individual loses 
their job goes and joins the reserve component as a part-time 
job. They probably go and look for the active service for a 
full-time job. And, in fact, I am concerned that it could end 
up having soldiers in the Reserve who lose their civilian job 
go on active duty and could actually be an attrition factor for 
us.
    I think what we have got to do in the Army Reserve, as we 
approach our end strength, this year my focus is really going 
to be on shaping the force and using those incentives that we 
have got to get the right capabilities.
    You mentioned earlier to the other panel about medical 
recruiting. We have a large medical force in the Army Reserve. 
We supply a lot of the medical capability for the Armed Forces. 
Those are critical shortages for us, also. So we need to 
reallocate some of the incentives we have got, not reduce them 
but reallocate, to attract for medical capabilities in our 
service.
    Military policemen. Civil affairs capabilities that call on 
people that are city managers or utility directors or things 
like that that they can use those same skill sets for us in 
nation building.
    So what I am trying to carry the message of, we have got to 
maintain the incentives we have got; and within the Army 
Reserve let me reshape them to get the capabilities this Nation 
needs.
    Mrs. Davis. Let me just follow up quickly. And others might 
want to respond. Do you have the flexibility to do that? And 
are there some new ideas to really tap those individuals that 
you spoke about?
    General Stultz. Yes, ma'am. Within the Army policy in a lot 
of cases we can in some cases realign. Obviously we do critical 
skill retention bonuses, and we target certain skill sets with 
our enlistment bonuses. As we get enough of certain 
capabilities, we lower the bonuses there and increase bonuses 
in other areas. So we do have some flexibility.
    However, I will give you a couple things that we are doing 
in the Army Reserve.
    Obviously, we have got the employer partnership program we 
started where we are talking to America's industry, for 
instance, the medical industry of America, and say what are 
your shortages? And where they are short medical technologists, 
respiratory, Emergency Response (ER), surgical techs, x-ray 
techs, we are helping fill their needs by recruiting soldiers, 
training them, and giving them a civilian job. So we are 
putting capability back into America. It is a unique spin on 
instead of going to America's business and asking for their 
help to give us soldiers, I am saying: Let me give you 
employees.
    But the other thing I am doing, I am working with some 
medical universities to say give me scholarships basically so I 
can go and recruit individuals to be doctors or nurses or 
whatever, and I will give you adjunct faculty. Because I have 
got a lot of wonderful docs in the Army Reserve who are pretty 
well known throughout the Nation and the world that a lot of 
these universities would love to have as adjunct faculty. So, 
if you will give me some spots in your medical school, in turn 
I will give you some adjunct faculty. We are getting ready to 
sign an agreement with Pacific University in the Northwest, and 
we have just signed one with the University of North Carolina 
for the nursing school.
    Mrs. Davis. Thank you. Let me just go ahead and let the 
rest of you respond, if you could, quickly to that.
    General Stenner. Madam Chairwoman, I can very quickly. As 
an Air Force Reserve, we ended last year at the lowest point we 
will be at as a result of the base realignment and closures and 
the Program Budget Decision (PBD) 720 reductions.
    Right now, we are at the foundation and the floor and 
growing, and we are going to grow based on a lot of non-prior 
service folks that we are not necessarily used to getting. We 
have likely all counted on that prior service talent coming to 
us. So it is not the recruiting dollars that we will be able to 
get the folks; it is the second order effect that I am more 
concerned about, and that is the subsequent training to get the 
folks to that level of capability we need them to. So we can 
get them on board. Now, we need to train them.
    Mrs. Davis. Thank you. We will try and deal with that in 
another question.
    General Bergman.
    General Bergman. Very briefly, going back to my comment 
about transitioning from the operational--to the operational 
from the strategic reserve. As the manpower planning and 
policies which allocate the bonus money, which we have right 
now, catch up to where we need it in the operational reserve, 
we will be okay. It is a matter of refocusing that effort 
within the Marine Corps.
    Mrs. Davis. Anybody else?
    Admiral Debbink. In the Navy, we believe our funding is 
adequate. In fact, we are constantly readjusting our selective 
reenlistment bonuses as well as other incentives we have to 
target the fit that we are looking for. As you know, we are 
coming down from just over 67,000 to 66,000. So we have some 
luxury there perhaps. But even more importantly, the long-range 
view that we have is we have about 40,000 sailors who leave the 
active component every year, and we estimate about 17,000 of 
those would be eligible to join the Navy Reserve or transition 
to the Navy Reserve. And we need about 9,000 a year. So our 
real goal is to target those prior service sailors that are 
serving now today and bring them into our reserve component and 
thereby become even more efficient with our funding for 
recruiting and retention.
    General Wyatt. Madam Chairwoman, on behalf of the Air 
Guard, our recruiting and retention as far as the baseline has, 
in my opinion, has not been what it should have been in years 
past. But we are taking steps to remedy that. We are moving 
some monies out of the supplement into the baseline budget. But 
we face the same temptations I think that all of the 
individuals at this table face, and that is the threat of the 
economy and the effect that it will have on those recruiting 
and retention budgets.
    We also recognize that the Air Force is growing from 316 to 
330. The Air Force Reserve perhaps will be growing back to 
levels that it enjoyed prior to some base realignment and 
closure actions. The demand for the capability is there, and as 
a member of the total force, United States Air Force, we need 
to be poised and ready to accept those missions as they come 
our way. Right now, if you looked at the missions that we have 
on behalf of the United States Air Force and our 
authorizations, we already need 2,228 positions just to do the 
missions that we are currently doing for the United States Air 
Force. As the Air Force grows, we are poised to grow with them. 
So now is not the time, in my opinion, to cut the recruiting 
and retention budgets. But we do need to get more focused on 
getting the right airmen in the right place. We need to focus 
on prior service. We are doing that by increasing the number of 
our end service recruiters on active duty Air Force bases with 
the help and with the consent not only of the United States Air 
Force but with the States that are allowing their recruiters to 
be used in such a fashion.
    Thank you.
    Mrs. Davis. Admiral May, do you want to comment?
    Admiral May. Madam Chairwoman, we don't expect a lot of 
changes for the Coast Guard. We do our recruiting in our kind 
of one-stop shop operations all over the country where 
recruiters do active duty and reserve at the same time. So when 
someone walks in the door, they will talk to them. It may be 
that the active duty component will not work for them; however, 
the reserve will.
    So we don't anticipate a lot of changes there. We have been 
very fortunate that we have had strong interest in the Coast 
Guard, especially both active duty and reserve. We don't have 
that many bonuses. The ones that we do are for our 
expeditionary forces, our port security units. We have had very 
good response and strength in support for filling those out, 
and we don't anticipate any changes here in the coming year in 
our ability to still force those.
    Mrs. Davis. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairman. And General Vaughn, 
I want to wish you well on your upcoming retirement. I want to 
thank you for your service. What a time to depart, with 
extraordinary success in recruiting, retention, end strength. I 
am so happy for you. I am so happy for your recruiters. As a 
guard veteran, a guard parent, I particularly appreciate your 
success, and I believe a lot of it relates to working with 
families. And so getting families involved has had a remarkable 
success. I know that our Adjutant General, Stan Spears, and his 
wife, Dot, have been so encouraging of families. It should also 
be noted that for the first time in 10 years that DOD quality 
standards for new recruits has exceeded all levels. So thank 
you. What a way to leave office. And so, congratulations.
    In fact, the Army National Guard at 367,000 members exceeds 
the force level of 2013, which was to be 358,200. What should 
be the strength size? Do you believe that 358,200? Or should it 
be higher?
    General Vaughn. Congressman, thank you. Thank you for the 
comments, first of all. I think that, and given your experience 
you will know that we are in a position for the first time to 
shape our force in a way that hasn't been done in 50 years. We 
are all about readiness, we are all about trying to cut down on 
the amount of cross leveling, which really messes families up 
and everything that falls out after that.
    We had several things to overcome. End strength, the force 
structure end strength deviation. As you heard my buddy Mike 
Rochelle talk about, we needed more training seats so that we 
can get the training pipeline down. But you know as well as I 
do, one of the real bad issues we have is that we swear 
youngsters in at day one, and many times these youngsters 
encumber that slot for maybe as much as a year before they go 
to training. So we are going to institute something that the 
Army has done for many years, which is a delayed entry program. 
We will take youngsters that are at 12, 11, 10, 9, 8 months, 
all the way out, and we will not swear them in on day one. So 
this is one of the levers, and what we are trying to do is 
force up the number of soldiers that are basically in our 
formations.
    Now, once we have done that, then we need to approach the 
next piece, which is the over strength of the Trainees, 
Transients, Holdees, and Students (TTHS) account, just like 
mother Army in order to grow the great readiness. And then the 
debate will be, what does the strength or the authorized 
strength of the Guard really need to be? We have pegged that to 
371,000, with an additional 12,500 in what we call a Recruit 
Sustainment Program (RSP).
    But, again, we have work to do over the next year to two 
years to figure that out. And then I predict that mother Army 
and whoever succeeds me will come back and they will have that 
discussion with you, because that is the basis for 
operationalizing the Guard, in my view. And that is 100 percent 
trained soldiers in your formations, and not folks that aren't 
ready to go when you call them to go. And we have been in that 
model, and we are just now to that point, after four years of 
working at this we are just now at the point to push that over 
the goal line.
    So I appreciate the question.
    And I would like to say that we would like to have another 
12,500. I would like to have done that on my watch. It is not 
time for that. We have one more thing that we need to do before 
we come back, and there is two ways to do it: You either grow 
the end strength, or you take down some force structure. And 
that will be a good debate for all of us to have.
    So thank you very much.
    Mr. Wilson. Well, and I have never been prouder of the Army 
National Guard and know of their capabilities. And General 
Stultz, congratulations to you on your building the end 
strength of the Army Reserve. I also want to commend you with 
your civil affairs units. They have never been more important, 
working to build local governance in Iraq and Afghanistan. I 
have seen it firsthand. A challenge, though, for you is the 
lack of captains and majors. How is that being addressed?
    General Stultz. Yes, sir. The challenge we have got, as you 
mentioned, as we are approaching our 206,000 end strength, we 
are still short almost 10,000 captains and majors in our force. 
Part of that is because the active Army has placed a lot of 
incentives to retain captains and majors that normally would 
have left active duty, as well as in the ROTC programs they are 
assessing most of the lieutenants coming out of ROTC onto their 
active duty roles. So we are just not getting the flow that we 
used to.
    We are addressing that in a number of ways. One is that we 
are instituting now a three-year ROTC scholarship. We are 
pushing the Army to go to a four-year ROTC scholarship. There 
is some argument, does that require legislation or policy? We 
will get to the root of it and we will figure it out. But we 
want to be able to offer an individual that wants a civilian 
career but also wants to serve their Nation the same four-year 
scholarship that the active Army offers them. So we are pushing 
for more authority there.
    Secondly, we are working aggressively to approach the Army, 
as Dirk mentioned, the continuum of service where we want to 
talk to officers and NCOs that are thinking about leaving 
active service 6, 9, or 12 months before their Expiration Term 
of Service (ETS), to talk to them about transitioning, not 
getting out but transitioning into the reserve components, and 
use our employer program to transition them into a civilian 
career where they can use those skills they developed in the 
active Army civilian life with a company that is very 
supportive of the reserves.
    Those two things are very critical to us. Because we talk 
about direct commissioning, but every time I direct commission 
an officer out of my ranks I lose an NCO. So that is not the 
answer. I think the answer is also in respect to the civil 
affairs community, and what we are exploring is we direct 
commission a lot of medical professionals, doctors, a lot of 
them over 50 years of age who want to join our force and serve 
their Nation. What we need to do is go after those other skill 
sets that our civil affairs forces needs, things like bankers, 
things like city managers, people that are out there that have 
tremendous civilian skills, and be able to direct commission 
them as a major or a captain and bring them into the uniformed 
services. We are working that very hard right now with the Army 
to get that authority, and the Army G-1, General Rochelle, who 
was here earlier, is working with us on that.
    Mr. Wilson. And if there are any congressional initiatives, 
I look forward to working with my colleagues on that.
    Mrs. Davis. Mr. Kline.
    Mr. Kline. Thank you, Madam Chairwoman.
    Thank you, gentlemen, for your years of service and for 
being here today. And General Vaughn, let me say it has been a 
great pleasure working with you these years, and we wish you 
great success as you move forward.
    Mr. Kline. If your successor is as successful as you have 
been, then the Army Guard is in great shape for some time to 
come. So thank you very much.
    I couldn't help but notice when the first panel was here 
that my friend here, Joe Wilson, was bragging about how he is 
personally responsible for the end strength of several 
services, and I want to thank him and his offspring for doing 
that. I can't compete with that. And unfortunately or 
fortunately, it depends on which panel I am talking to, my son 
and my nieces are all in the active component of the Army. So 
now my challenge will be to get my niece, who is an Army nurse, 
when she completes her act of service, to move into the Army 
Reserve. But I, like Mr. Wilson, am very proud of the 
contributions of my son and my family to the Armed Forces. They 
are happy to serve, which is sometimes not understood by many 
people in America.
    My son and my nieces are happy to serve. They are proud to 
serve, and I think that is true of the vast majority of the men 
and women in uniform today. And that is evidenced by our 
retention numbers, which are quite frankly very, very 
impressive, and I am sure that I and others have marveled 
sometimes that the largest reenlistment occasions occur in 
places like Baghdad. These terrific young men and women want to 
serve. They are serving, and they are serving well.
    I have been interested in the discussion in both panels. We 
have talked about issues with dwell time and operational tempo 
and personnel tempo and bonuses and pay and all of those 
things, questions that the Chair has asked and other members. I 
am going to throw just a broad question out there. It is a 
softball or a hard ball depending upon how you look at it.
    When you look at the challenges coming up this year and 
next year particularly, 2009, 2010, perhaps in 2011, what is 
it--in view of recruiting and retention only, what is it that 
is your biggest concern or what you would, your biggest wish 
that you could impart to us of what it is you need to see 
happen or what it is that you are desperately afraid might 
happen that is going to adversely impact? And I just ask 
everyone. This is one of those lightning rounds. You have about 
20 seconds here.
    General Stenner. I will start, Congressman Kline. I think 
that for the United States Air Force as we in fact attempt to 
grow in new mission areas, the biggest issue we are going to 
have is getting the right balance of the active and reserve 
components in all of those mission sets so we can be that 
strategic reserve, that we can leverage to do the operational 
capability so that we provide on a daily basis and in the Air 
Force construct of the AEF, the Air Expeditionary Force, that 
we provide that on a rotational basis and so we can do that in 
a sustainable manner, and if we can do that with 
predictability, then we can sustain that for quite some time. 
Whatever we can do to drive predictability into the dwell, 
drive predictability into the length of tour, provide 
predictability for the family and for the employer, we will be 
able to tell our folks and the expectation control that comes 
with that will allow us to sustain that operational capability 
that we are all providing on a daily basis.
    General Bergman. Sir, no question, predictability is the 
number one driver for the reservists because they are planning 
a parallel life that they--we all have families. It doesn't 
make any difference whether you are active or reserve, but the 
reservist has that employer. So for them to balance that 
civilian career, predictability is number one. Recruiting and 
retention are continuous. A good unit, a good command is always 
focusing on that. Equipping is sequential. If you are in year 
one of dwell time, just getting back from a year of deployment, 
you don't necessarily need the equipment at that point in that 
dwell time that you will need in year three, four, or five. So 
we just need to make sure that there is a consistency, again, 
in the planning of the predictability of the dwell time.
    General Stultz. Yes, sir, my fear, the Army Reserve is the 
enabling force for the combat force. We are the combat support, 
service support. As we decrease force structure, our forces in 
Iraq, we don't see the same level of decrease in the enablers. 
So they still have to have the doctors. They still have to have 
the logisticians, they still have to have the military 
policemen. At the same time when you see increases in, let's 
say, Afghanistan, first thing they ask for is the enablers to 
get in there first to set the theater before they bring in the 
combat force. So that is my concern.
    And what I would agree with Jack here is we have got to get 
predictability, but it is like Mike Rochelle said, the appetite 
that is out there just does not go down. And so my soldiers 
when I get out to visit with them, they are proud of what they 
are doing but they are saying what are you doing for me? Are 
you going to do anything about the retirement age? Are you 
going to do anything about medical care? Are you going to do 
anything about any of those things? Because you are asking more 
of me. But I don't see in return you giving back as much.
    So that is what I am focused on.
    General Vaughn. Sir, just as a comment, this thing about 
great pride in the force is exactly right. In our communities 
it just runs over. And it goes back to the predictability thing 
that we took off so hard after, and part of that is making sure 
our formations are completely full so we are not cross leveling 
and next thing you know somebody doesn't have the 
predictability. They think they are not going and here they 
come. And so that is why we have attacked seriously with the 
great change in our organization that we have got going and why 
we are attacking this delayed entry program in TTHS thing is 
next. In order to get there I just hope we don't, you know, let 
the air completely out of the tires on recruiting and 
retention.
    Now we all know that we are going to take this down some 
and we will all feel for where that is at. But to attract 
today's great soldiers and families, you know, there is a value 
proposition that still has to be there. And at some point in 
time if we let it all the way out, and I am not saying we got 
to keep our bonuses all the way up and I am not saying that we 
need the same amount of advertising, but there are some things 
you have got to do to keep it up there in the face of America. 
And so I would just ask that you watch that very closely.
    Thanks.
    Admiral Debbink. I think you are right on that our sailors 
are terrifically proud to be able to serve today, and I think 
the most important thing we need to continue to do is to give 
them what I call real and meaningful work to do every day when 
they are employed by the Navy. And that also goes right to the 
mobilizations that we make sure we are completely and fully 
validating every billet and that we send them to a job they are 
trained and qualified to do such that when they come home or 
they call home and their spouse or family asks them, how are 
things going, they say great. It couldn't be better and thank 
you for allowing me to serve.
    And that leads me into the other piece, and that is to make 
sure we keep supporting our families. I know all of us at the 
table here have that joint commitment to each other that we 
would support any service members' family any time, anywhere 
they need it.
    And those are the two most important pieces I offer, sir.
    General Wyatt. Congressman Kline, on behalf of the Air 
National Guard I share the sentiments of General Stenner, Air 
Force Reserve. Everything he said is right on target with 
predictability.
    My concern is that we need to continue focusing on the real 
strength of all of our services, and that is our people. We 
have created an environment that is composed of not just 
salary, but bonuses, medical benefits, how we approach sexual 
assault, PTSD, Wounded Warrior, Yellow Ribbon reintegration 
programs, and we have created an environment that they like and 
that they are willing to deploy in record numbers and stay with 
us in record numbers. I think we need to be cognizant that when 
we change any one of those elements we change the entire 
environment. And I think we need to be cognizant of that.
    And let me close by just saying that not only do we need to 
continue to focus on airmen, soldiers, sailors, Marines but we 
also need to continue focusing on their families and in the 
case of the guard and the reserve especially the employers. We 
can never forget the employer piece.
    Mr. Kline. Thank you. Admiral.
    Admiral May. Thank you, sir, for the opportunity to 
comment. I would say that our best recommendation is that we 
don't cut any existing programs and we support the budgets that 
we have in place. One of the unique things that the Coast Guard 
enjoys is a strong propensity from our active duty members to 
move over from the active duty component to the reserve 
program, and they do that for a number of reasons. And as 
General Stultz pointed out, we invest heavily in our people. 
The Coast Guard, when young men and women come into our 
service, we invest in their education. We invest in their 
training. We treat them as if they are going to be a lifelong 
member of our organization. And many are. But we also have the 
ability for those folks to move from the active duty over to 
the reserve component, medical, all those sort of services that 
you all have supported and made available for our young men and 
women and their families. All enter in those decisions that 
they make as who their employer is going to be.
    So I would say we need to continue up on those benefits and 
those services for our young men and women that serve in our 
military.
    Thank you.
    Mr. Kline. Thank you very much. Thank you, Madam Chair, for 
your indulgence.
    Mrs. Davis. Thank you. I appreciate the question. And we 
are always trying to identify what it is that, number one, 
keeps you up at night and that we need to try and resolve with 
you.
    You mention predictability, several of you did, and there 
are some elements of that I know that we can't control. But of 
those that we can, what do you find to be the biggest obstacle 
to try and impress upon people we need to get right? You may 
have addressed this, but of those elements what is it you know 
certain things and yet maybe those are issues that we have a 
difficult time identifying, and particularly I think, General 
Vaughn, as you are exiting as well, are there some things that 
you know to be true that you just want to go out on the top of 
rooftops and let people know about?
    General Vaughn. Well, Madam Chairwoman, on predictability, 
and I think you can tell from the other answers, you know, the 
things that keep me up and going on this is exactly what I have 
said, and I am not going to come off of it. We have been on a 
strategic plan for four years to get this right. We entered 
into this with the greatest bunch of soldiers that you could 
possibly have. But we were a 75 percent force. Even at 100 
percent or 90 percent we only had 75 percent soldiers in our 
formations. And so taking the strategic moves along with this 
subcommittee that gave us the tools to do that has been an 
enormous thing. And the predictability thing, and I talked 
about a second ago, in order to get our system, our flawed 
system, correct, we are asking for a huge culture change from 
the Army National Guard and you know across the whole 54 that 
is a big deal. We tell the 54 you are--you know, the 50 States, 
the three Territories and D.C.--the 54 is the weakest thing we 
have, you know getting everybody together, but when you get 
them all organized on the objective it is the strongest thing 
we have. And we are organized on whipping this delayed entry 
program and then going for the TTHS, which will give 
predictability within means to those formations, and whatever 
the Nation asks us to do, and that is the job of everybody up 
here, to be ready you know when the Nation or the state says I 
need this formation then we have got to give it to them. And I 
am telling you we are so much better but we still not quite 
there yet. And so we are going to get this predictability thing 
done right within bounds. I wish it was 5 years back, I wish it 
was 4 years back, I wish it was 3 years back, but I don't want 
the thing that says 25 percent of those soldiers that are 
really going in that formation and they don't know it yet 
because they are going to be cross leveled in there. And that 
is what we have to fix. That is a family problem. I saw it 
years ago. We would come home and have these great formations 
that would come back, Congressman Kline. And we would hit 80 
percent of them, and 80 percent of the families would be there. 
But there would be onesies and twosies getting on buses going 
some place back to their families and they weren't getting the 
welcome home ceremonies, and they weren't part of the family 
readiness groups either that took place during that time.
    So we have owed it to our families and soldiers to fix 
those things and you have helped us fix those things. And we 
are close to it and we just want to stay on track.
    General Stenner. Madam Chairwoman, if I could, 
predictability is one to one, is one to five dwell but I would 
dearly love to not have to tell anybody that it is predictable 
at one to one. There are stress career fields, there are low 
density high demand career fields, there are places that we 
need to add additional capability, whether for the Air Force be 
in a unit program or for the Air Force Reserve individual 
mobilization augmentees, where we can make it predictable at 
the level that we need them or would like them to participate 
as opposed to a continuous participation. To get to that point, 
we need to look at those additional assets that we might need 
for the future to go to those particular areas where we can 
serve the capability the best. If we don't, we end up 
offsetting within the current portfolio, which again will add 
the risk to others and continue in the stressed and low density 
high demand arenas.
    So the additional resources required to fix those would be 
one of the things that I would be after, first of all, to get 
the predictability to the place we want it, a one to five, one 
to four, one to three dwell, somewhere in there.
    Admiral Debbink. And I would offer that right now with the 
Navy Reserve we have about 27,000 sailors that are mobilizable, 
that they are ready and they are outside of their dwell and 
that sounds great, but what happens is you get into the one 
eaches, the particular communities that, say for example intel 
and other areas where we know where our red lines are, and 
provide that we don't push our sailors past those red lines, 
the one to five, and if we do then we give them the added 
benefits which are in the law and if we need to push them even 
further that we look at making sure we are compensating them 
for it, they will continue to come to the fight for us.
    General Wyatt. Madam Chairwoman, on behalf of the Air 
National Guard I think the thing that keeps me awake at night 
is trying to assess and answer the question, are my airmen 
properly trained? Are they properly equipped? And are they 
properly led? And I think the answer to that is yes, I know it 
is with the help of the United States Air Force and the Air 
Force Reserve, the total joint force, especially as we focus on 
the overseas fight. My concern though is that the fight we 
cannot lose is the fight here in the homeland. And I think a 
recognition from a guard perspective that we are a dual mission 
force, that we have not only the fight overseas to be concerned 
with but the fight here at home in support of our governors is 
one that I hope we don't lose focus on because I have got to 
answer that question for my airmen in both fights, not just 
one.
    Admiral May. Madam Chairwoman, our biggest concern is our 
capacity. That is the only thing that is really limiting us. It 
is our great challenge every day in our business, where we 
spread ourselves. As Admiral Allen, our Commandant, often likes 
to say, business is good but the Coast Guard needs to grow, and 
that is both our active duty and our reserve component 
together. If you look at our 41,000 active duty and our about 
8,000 reserve, that is a total force of less than 50,000. To 
give that a little perspective, that is about the size of the 
New York City Police Department, only our jurisdiction is 
worldwide.
    So that is our biggest concern we have for the future. And 
I think through our long history of service to the American 
people, the unique capabilities that the Coast Guard brings not 
only to national defense but also to our homeland security, we 
are a great investment for the American public.
    So I would say if there is an opportunity that the Coast 
Guard would be a great investment for the American people.
    Mrs. Davis. May I just follow up for a second, Admiral? 
Your request authorization, is that, do you see that as being 
actually quite different from where you really anticipate and 
expect to be at that 10,000 level?
    Admiral May. Ten thousand is where we hope to be. We have 
had obviously budget challenges in getting there. We continue 
to be on that track to get to 10,000. We certainly would like 
to get there, as I said. We hope to grow the active duty. The 
reserve needs to grow right along with that. And each year we 
look for opportunities to do that, and we will continue to do 
so.
    Mrs. Davis. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you. And Admiral Debbink, thank you for 
being here today, your first appearance. I wanted to commend 
your personnel. I had the opportunity to see the Seabees in 
Fallujah, and they were helping build the infrastructure, a 
civil society, and so the Navy Reserve, sand sailors, have 
really made a difference and I want to commend you.
    Also, Admiral May, I am happy to be here with you to have 
the Coast Guard involved. I grew up in the neighborhood of the 
Coast Guard base at Charleston, South Carolina. I was always 
impressed by the professionalism of the young people I saw 
serving. And I represent now the communities of Beaufort and 
Hilton Head Island. And so it is really reassuring to know of 
your capabilities and professionalism of the Guard. It is 
something that people need to know. Indeed the Coast Guard 
Reserve is unique. And also you need to point out that it is 
nonredundant compared to the other DOD reserve components. Can 
you go through that?
    Admiral May. Yes, sir. Thank you for asking and thank you 
for your comments on our Coast Guard folks in South Carolina, 
and especially Charleston. Coast Guard Reserve is unique in 
that we certainly are very similar to the other reserve 
components in that we are a surge capability, we are an 
additional force for active duty component. We are there for 
all aspects of title 10. What makes the Coast Guard reserve a 
little bit unique is that we also can be involuntarily recalled 
under title 14. That is a statute that the Secretary of 
Homeland Security enjoys where he can recall reservists in 
support of a national emergency of any nature. That is what we 
have used to respond to Hurricanes Katrina, Rita, and that 
provides an extra level of opportunity for members of the Coast 
Guard Reserve to respond in support of the country for whatever 
the need may be.
    Mr. Wilson. And during Katrina, what was the level of 
search and rescue that--it was a record, wasn't it, that the 
Coast Guard performed?
    Admiral May. Yes, sir, 33,000 individuals saved, which was 
a record for the Coast Guard. On an average year it is about 
one seventh. So that is about 7 years worth of rescue within 
that short period of time.
    Mr. Wilson. Well, the American people need to know the 
extraordinary success.
    General Wyatt, I am really grateful to have visited the 
joint air base, the McEntire joint air base, and the esprit de 
corps, the pride of persons, serving in the Swamp Fox Squadron 
there is phenomenal. In fact two weeks ago, I visited Iwo Jima, 
which is now a Japanese air base. And when I entered, there was 
a picture of the Swamp Fox Squadron on the wall as you come in 
to the right, and it is the only picture. And it was signed by 
D ``Dog'' Pennington and the others of the squadron and it made 
me very proud that our Air National Guard is renowned around 
the world.
    Also I want to congratulate you that for the first time 
since 2002 the end strength has been achieved by the Air 
National Guard. But a concern that was expressed in your 
message to us was the lack of a personnel strategic plan 
linking recruiting and retention programs to an organizational 
strategic plan.
    Can you explain why a lack of a strategic personal plan, 
that this needs to be addressed?
    General Wyatt. Yes, sir, Mr. Wilson. The situation in the 
past has been that in my opinion the Air National Guard was 
reactionary in a lot of the recruiting and retention efforts 
that we had. We were reacting to Base Realignment and Closure 
(BRAC), we were reacting to certain downsizings, we were 
reacting to events that prevented us from being a look forward 
force. We have taken steps over the last couple of years 
initiating what we called strategic planning system.
    It is a field driven process primarily worked by the 
assistant adjutants general in each of the 54 jurisdictions 
with subject matter expert advice from my staff to formulate a 
plan that meshes extremely well with what the United States Air 
Force sees in emerging missions. And the objective is to take 
our recruiting and retention plan and link it up with the 
vision that we have as an organization now in concert with the 
United States Air Force so that we can more effectively 
leverage the dollars that we do have in recruiting and 
retention. Instead of just going for end strength, we will now 
target different job skills, different skill sets, different 
civilian acquired skills that make the Air National Guard 
strong. We can do that while we look forward to emerging 
missions and instead of being a reactionary force, being a 
proactive force.
    Mr. Wilson. Thank you very much.
    Mrs. Davis. Mr. Kline, do you have any questions?
    Mr. Kline. Thank you, Madam Chair. I was thinking about the 
officer balance issue, General Stultz, that you were talking 
about and there was sort of competition moving back and forth 
between the active components and the reserves. And the Marine 
Corps has done this very differently for a long time. There 
aren't any lieutenants in the Marine Corps Reserve. Maybe there 
is one. I don't go, but fundamentally they go, in the Marine 
Corps the officers go in the active component and then move 
into the reserves and they are either very senior lieutenants 
or captains. So the whole force structure or the officer 
structure is a little bit different.
    I am not suggesting that the Army adopt that model, but I 
am suggesting that we explore every opportunity as we are 
trying to get the leadership that we need into the Army Reserve 
and any other component. We need to be open to perhaps a little 
bit different way of thinking about it. And again I am not 
suggesting this, this is not a matter of record here, I am not 
suggesting the Army adopt this, but I would encourage all of 
you to look at nontraditional ways of adjusting the force. I 
know that the Army National Guard, for example, in Minnesota 
aggressively, years ago, went to high schools to recruit, some 
would argue in competition with, using General Vaughn's words, 
Mother Army, but it has paid some dividends, where Army 
National Guard in some other states relied on prior service.
    And so again I have a personal preference for one model or 
the other, but the importance that I would just offer to you, 
and I am not going to ask a question because I went way over my 
limit last time, but just offer to you that we really ought to 
be looking across services and across components for the best 
practice and be willing to move out of the traditional realm.
    And I will just throw that out there, and again thank you 
for your marvelous service and for the unbelievable service of 
the reserve component in ways that we never dreamed of ten 
years ago. Truly remarkable.
    Thank you, Madam Chair. I yield back.
    Mrs. Davis. Thank you, Mr. Kline. You know one of the 
issues that you have all touched on I think in numerous ways is 
in many ways that the reserve competes with the active duty and 
vice versa. There is a real tension there. Do you also see that 
there is a great deal of duplication and is there some way that 
we need to get a handle on that? What would you like to do?
    General Stultz. Yes, ma'am. I will speak, and I think I 
will speak for my buddy here Clyde. You are exactly right. One, 
to your point, sir, we have to break down this competition. We 
have to say, listen, in this day and age individuals flow back 
and forth. They change jobs every four or five years. That is 
the model that this generation grew up on. So this idea of 
recruiting a soldier for life, he is probably not going to stay 
on active duty for life. He may flow into the reserve, try 
civilian life for a while, he may flow back into the active 
force after a while. We need to make that transparent, make 
that continuum of service work. Right now the continuum of 
service from my perspective is a one-way street. They wanted to 
go to the active side, but making it easy to flow into the 
reserve is not because of just trying to hold on to them. But 
recruiting, the other panel, the question came up about the 
high schools, our soldiers are already in the high schools. We 
recruit them when they are juniors in high school. And both the 
Army Reserve and the Guard had started the program, the Guard 
started it first, I will give them full credit, GRAP, Guard 
Recruiter Assistance Program. We replicated it on the Army 
Reserve side, Army Recruiter Reserve Assistance Program 
(ARRAP). This past year we got 5,000 soldiers out of that. That 
is why our end strength is growing the way it is. And it is 
kids in high school recruiting.
    Now there was concern just recently because of a high 
suicide rate among a recruiting unit down in Texas. And the 
question comes back why, you know, what are you doing? You are 
bringing a soldier back that has been on two or three 
deployments, and now you are putting him into recruiting 
command and you send him out to some remote area to recruit 
where he has no support base or whatever. Our soldiers are 
already there. So what Clyde and I have told them is, ``look, 
let us do the recruiting for the active Army using our 
soldiers,'' I can take a soldier and say ``do you want to go on 
active duty for a couple of years in your hometown and recruit 
for the Army? Stay in your reserve unit while you are there, 
drill with them on your monthly drills and everything, but do 
recruiting the other time and free up the active Army to take 
these NCOs and everything and put them back in their force.''
    Those are the kinds of things we need to look at where we 
are duplicating----
    Mrs. Davis. Is that idea resonating?
    General Stultz. We are going to do a pilot test. General 
Ben Freakley with Accessions Command and I have agreed along 
with the Guard to do some pilot tests for hometown recruiting, 
using guard and reserve soldiers instead of active duty 
soldiers to recruit for the Army because who knows better that 
community than our soldiers who live there.
    Admiral Debbink. And your question goes right to constant 
dialogue we have in the Navy. Let me give you two examples, one 
is our logistics community, our Fixed Air wing squadron (VR), 
which is almost 100 percent reserve, and the active component 
said we need you to fly the C-40s and fly the C-130s for us, 
and that is a conversation we had with them and that is where 
the capability resides. And in contrast perhaps to Congressman 
Wilson's point, our Seabees, our fighting Seabees, which I will 
have the opportunity next week, I am going over to theater 
myself, I am very eager to follow your trip as well, sir, and 
congratulate them on their great support. They make up a part 
of our NECC, our Navy Expeditionary Combat Command, 
headquartered down in Norfolk which is right now today 51 
percent reserve and 49 percent active, and they are doing some 
great work down there, some analytics to say is that the right 
mix or not, and is it the right mix for today when we are in 
the middle of these two fights, or what is the right mix for 
three or four years from now?
    So it is a very important question for us to get at, and we 
are working hard to answer that question.
    Mrs. Davis. One of the other issues that comes up as well 
is retirement pay and whether or not moving towards a 
retirement pay where reserve officers are able to pick that up 
much earlier than their 60s, than 60, which we are trying to 
pick off a few months here and there, is that something that 
you feel actually is a positive? Does it give you more 
officers? Or does it also add another element of competition 
that perhaps maybe from the active personnel would suggest that 
that is not the right direction to go?
    General Bergman. If I could address that, Madam Chairwoman, 
our goal, and I think I would speak for the folks at this 
table, is to increase the length of the careers of fine, 
qualified, serving enlisted and officer, whether they be 
soldiers, sailors, marine, guardsmen, coast guardsmen, 
whatever, the pay and the retirement systems that they buy into 
should be recognizable to this generation of millennials, that 
says as I go through my life I am going to have my personal 
finance bag that I can add to and it is set up in such a way 
that those who are serving very well should reap the benefits, 
if you will, of that system.
    Mrs. Davis. Any comments on that?
    General Stenner. Can I jump in for just a second? Back to 
your original question as far as the seams or the apparent 
competition between active and reserve, when you look at it 
from a lens of what we are calling in the Air Force the 
association, where we have the similar, the same equipment, the 
same mission set, and we combine the active component with 
either a guard or reserve or vice versa, what you have got at a 
single installation, at a single unit, is both flavors of 
active and reserve, which gives you the--if you can get 
somebody on board, you put them in a place there is no 
competition, it is additive to the capability that is there. It 
is very fiscally efficient, very much an efficient way to 
deliver that capability, and when you hire somebody you have 
got them and they see each side of the house.
    Now I also think that the retirement piece is a very big 
incentive right now for not only those who we are bringing on, 
but for those who are currently in and are looking at 
alternatives that will allow them to bridge that time from the 
time they leave the service until they have to feed the family 
with the retirement check. And that is helpful, keeping them 
in, retention wise as well as recruiting.
    Mrs. Davis. General Wyatt.
    General Wyatt. I think your question, Madam Chairman, was 
in the context of retirement benefits. And I think what my 
airmen are telling me is that because of what they are being 
asked to do now as opposed to what they were asked to do 20 
years ago, they are not necessarily looking for equal, but they 
are looking for equitable, which means fair. And I think we 
have taken some steps recently to move in that direction. I am 
not sure we are totally there yet. And I think when the airmen 
have the feeling that the retirement system is equitable, then 
we will be able to compete with maybe a full-time retirement 
that might not be equal but at least it will be fair and 
equitable.
    Mrs. Davis. Thank you. Mr. Wilson.
    Mr. Wilson. Yes, thank you, Madam Chairwoman, and General 
Stultz, I am glad you brought up about the GRAP program. I have 
two sons who are participating in that program, and these young 
people have credibility with their peers and colleagues and 
they are able to explain about the training opportunities, the 
educational opportunities, the leadership opportunities. One 
can tell firsthand of a year serving in Iraq. Another has 
served in Egypt, an extraordinary opportunity for this young 
fellow.
    Also, I am very interested in and we have legislation 
pending relative to the age of retirement. And would you see 
that by reducing the retirement age from 60 to more conforming 
to with the active forces, would this help in terms of 
retention and in particular be a benefit that spouses would 
appreciate?
    General Stultz. Yes, sir. I look at the retirement age 
being exactly that, a retention tool, and it gets to what Jack 
Bergman was just saying, being able to retain those quality 
individuals that we want to keep. Because the challenge we have 
got in the reserve, if you have gotten 20 good years of service 
but you are not going to draw your retirement until 60, and 
there is no incentives, reenlistment bonuses or anything else 
beyond 20 years, so what is the incentive to stay?
    And as I have related a story, I was talking to a young 
sergeant who actually was an Army National Guard sergeant, when 
I came back from Iraq, and I asked him what he was going to do 
and he said I am going to get out and I said why and he said 
the Army doesn't want me. And I said that can't be true. I 
said, sir, you are an NCO, you are an 88 Mike (truck driver), a 
critical skill, a combat veteran. He said, but, sir, I have 22 
years in and there is no incentive for me to stay, and, to 
Congressman Wilson's point, he said I have to go home and face 
my wife. And if I tell her I am reenlisting, she is going to 
say what are they going to give you, and when I say nothing, 
she is going to say, you are going to say you are volunteering 
to go back.
    So there has to be some connectivity to say, hey, there is 
a reason to stay once you have earned the eligible retirement 
because we are going to give you something. And I think 
lowering the retirement age for staying beyond 20 in some kind 
of formula would provide that incentive, not just for the 
individual soldier but also the family, to say, yes, we are 
going to be able to do things earlier in life because you are 
staying and you are standing at risk of another deployment but 
there is a reason.
    Mr. Wilson. I am really encouraged, and I look forward to 
working with Chairwoman Davis. There are different formulas out 
there, the flat 55, the proposal of one year for every two over 
20, which I think would be so helpful with spouses, by using 
retirement points as a formula, and of course adjusting, as 
General Wyatt has urged, that we provide for retroactivity and 
equity for persons deployed to September the 11th, 2001, as 
opposed to what we finally got a breakthrough last year.
    And, again, thank you all for what you do for the young 
people of our country.
    General Stultz. Yes, sir. As I travel around Iraq, 
Afghanistan and the Horn of Africa, whatever, and talk at town 
hall meetings, the number one question they ask me is what are 
we going to do about retirement. It is on the minds of our 
soldiers.
    Mrs. Davis. I think it is on everyone's mind right now, 
sir. I appreciate that. I had mentioned earlier that as we wrap 
up, you have something that you just really wanted to be 
certain to say today that you didn't have an opportunity to, 
please take that opportunity right now and then we are going to 
wrap up.
    Anybody have anything? You don't have to. I just want to be 
sure you have that opportunity.
    General Stenner. Madam Chairwoman, very quickly, we are 
looking at challenging times today, we are looking at new 
mission sets for tomorrow, we are looking at growing in the 
appropriate mission sets to do what we need to do in unmanned 
aerial systems, Intelligence, Surveillance, and Reconnaissance 
(ISR), and that Air Force, three component Air Force, that 
stays proportional with every one of those mission sets is 
going to need an increase one way or another in all three. The 
Reserve is a very cost effective and efficient way to sustain 
that strategic reserve and leverage that to the operational 
force that we are today. So I am ready, willing and able to 
take this Air Force Reserve to the future.
    Thank you very much for your help.
    General Bergman. Madam Chairwoman, the Marine Corps is 
never going to let you down, whether it be active or reserve. 
Thank you for the continued support of the entire committee and 
the Congress.
    General Stultz. Just briefly, thanks obviously for all that 
you are doing for us and your support. You asked what keeps me 
awake at night? It is worrying about those soldiers who are out 
there that need our help, they have come back, they have 
demobilized, they are back in their civilian life and then they 
discover or we discover they have problems. And we have got to 
take care of those soldiers and we have got to make it easy, 
that when we identify a soldier that has PTSD or Traumatic 
Brain Injury (TBI) or something else that we can get them into 
the medical treatment system they need without the bureaucracy 
that is out there right now. That keeps me awake at night. But 
thanks for your support.
    Mrs. Davis. Thank you. We will be having some hearings on 
that.
    General Vaughn. Madam Chairwoman, same thing. Thank you for 
your support. I agree with Jack. The youngsters are coming back 
and are facing the dilemmas ahead with jobs and families and 
what not. I think it keeps us all awake at night. Thank you.
    Admiral Debbink. Chairwoman Davis, I just want echo that 
too, that the Yellow Ribbon reintegration programs and our 
support for our wounded, ill and injured sailors and all of our 
service members, and your support helping fund those programs 
is extremely important to us.
    And the other comment I would have back to the retirement 
benefits, and I believe we are working on this, but to look at 
that gray area, whenever someone retires, whether it is 55 or 
60, to cover or allow them to take TRICARE Reserve Select 
through that period even at full cost, which is some $700 a 
month, but that allows them the continuity of care so that once 
they go on TRICARE if they are injured or there is a problem 
that occurs while on active duty and they are no longer 
eligible to move back to their reserve health care, they have 
TRICARE that can take them through the retirement age, Ma'am.
    And other than that, thank you for your support.
    General Wyatt. Chairwoman Davis, on behalf of the Air 
National Guard, thank you for the honor and privilege of 
testifying before you and Ranking Member Wilson and members of 
the subcommittee. I am thankful we have a constitutional 
provision that is displayed there in the panel below your name 
that sets the rules of the game, if you will. I am comforted by 
that fact. And I trust that Congress will do its job. We will 
do our job. And I thank you for your support.
    Admiral May. Chairwoman Davis, I have two thank yous. 
First, thank you and the committee for all that you do for our 
men and women of our military services. And we could not do the 
things that we do without your support and the help that you 
have provided to them.
    And secondly, thank you for having the Coast Guard here 
today as part of this hearing. Even though we are in the 
Department of Homeland Security, nearly all of the provisions 
and the regulations and policies that affect military members 
affect the Coast Guard as well as our other services. So by 
having us here today you have reiterated your recognition of 
that. And I thank you dearly for that. It has been an honor and 
a pleasure to represent the Coast Guard here today. Thank you.
    Mrs. Davis. Thank you. Thank you all very much. Thank you 
for your service, and we look forward to working with you as we 
have a number of issues that come before us. Thanks so much.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 3, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0088.001
    
    [GRAPHIC] [TIFF OMITTED] T0088.002
    
    [GRAPHIC] [TIFF OMITTED] T0088.003
    
    [GRAPHIC] [TIFF OMITTED] T0088.004
    
    [GRAPHIC] [TIFF OMITTED] T0088.005
    
    [GRAPHIC] [TIFF OMITTED] T0088.006
    
    [GRAPHIC] [TIFF OMITTED] T0088.007
    
    [GRAPHIC] [TIFF OMITTED] T0088.008
    
    [GRAPHIC] [TIFF OMITTED] T0088.009
    
    [GRAPHIC] [TIFF OMITTED] T0088.010
    
    [GRAPHIC] [TIFF OMITTED] T0088.011
    
    [GRAPHIC] [TIFF OMITTED] T0088.012
    
    [GRAPHIC] [TIFF OMITTED] T0088.013
    
    [GRAPHIC] [TIFF OMITTED] T0088.014
    
    [GRAPHIC] [TIFF OMITTED] T0088.015
    
    [GRAPHIC] [TIFF OMITTED] T0088.016
    
    [GRAPHIC] [TIFF OMITTED] T0088.017
    
    [GRAPHIC] [TIFF OMITTED] T0088.018
    
    [GRAPHIC] [TIFF OMITTED] T0088.019
    
    [GRAPHIC] [TIFF OMITTED] T0088.020
    
    [GRAPHIC] [TIFF OMITTED] T0088.021
    
    [GRAPHIC] [TIFF OMITTED] T0088.022
    
    [GRAPHIC] [TIFF OMITTED] T0088.023
    
    [GRAPHIC] [TIFF OMITTED] T0088.024
    
    [GRAPHIC] [TIFF OMITTED] T0088.025
    
    [GRAPHIC] [TIFF OMITTED] T0088.026
    
    [GRAPHIC] [TIFF OMITTED] T0088.027
    
    [GRAPHIC] [TIFF OMITTED] T0088.028
    
    [GRAPHIC] [TIFF OMITTED] T0088.029
    
    [GRAPHIC] [TIFF OMITTED] T0088.030
    
    [GRAPHIC] [TIFF OMITTED] T0088.031
    
    [GRAPHIC] [TIFF OMITTED] T0088.032
    
    [GRAPHIC] [TIFF OMITTED] T0088.033
    
    [GRAPHIC] [TIFF OMITTED] T0088.034
    
    [GRAPHIC] [TIFF OMITTED] T0088.035
    
    [GRAPHIC] [TIFF OMITTED] T0088.036
    
    [GRAPHIC] [TIFF OMITTED] T0088.037
    
    [GRAPHIC] [TIFF OMITTED] T0088.038
    
    [GRAPHIC] [TIFF OMITTED] T0088.039
    
    [GRAPHIC] [TIFF OMITTED] T0088.040
    
    [GRAPHIC] [TIFF OMITTED] T0088.041
    
    [GRAPHIC] [TIFF OMITTED] T0088.042
    
    [GRAPHIC] [TIFF OMITTED] T0088.043
    
    [GRAPHIC] [TIFF OMITTED] T0088.044
    
    [GRAPHIC] [TIFF OMITTED] T0088.045
    
    [GRAPHIC] [TIFF OMITTED] T0088.046
    
    [GRAPHIC] [TIFF OMITTED] T0088.047
    
    [GRAPHIC] [TIFF OMITTED] T0088.048
    
    [GRAPHIC] [TIFF OMITTED] T0088.049
    
    [GRAPHIC] [TIFF OMITTED] T0088.050
    
    [GRAPHIC] [TIFF OMITTED] T0088.051
    
    [GRAPHIC] [TIFF OMITTED] T0088.052
    
    [GRAPHIC] [TIFF OMITTED] T0088.053
    
    [GRAPHIC] [TIFF OMITTED] T0088.054
    
    [GRAPHIC] [TIFF OMITTED] T0088.055
    
    [GRAPHIC] [TIFF OMITTED] T0088.056
    
    [GRAPHIC] [TIFF OMITTED] T0088.057
    
    [GRAPHIC] [TIFF OMITTED] T0088.058
    
    [GRAPHIC] [TIFF OMITTED] T0088.059
    
    [GRAPHIC] [TIFF OMITTED] T0088.060
    
    [GRAPHIC] [TIFF OMITTED] T0088.061
    
    [GRAPHIC] [TIFF OMITTED] T0088.062
    
    [GRAPHIC] [TIFF OMITTED] T0088.063
    
    [GRAPHIC] [TIFF OMITTED] T0088.064
    
    [GRAPHIC] [TIFF OMITTED] T0088.065
    
    [GRAPHIC] [TIFF OMITTED] T0088.066
    
    [GRAPHIC] [TIFF OMITTED] T0088.067
    
    [GRAPHIC] [TIFF OMITTED] T0088.068
    
    [GRAPHIC] [TIFF OMITTED] T0088.069
    
    [GRAPHIC] [TIFF OMITTED] T0088.070
    
    [GRAPHIC] [TIFF OMITTED] T0088.071
    
    [GRAPHIC] [TIFF OMITTED] T0088.072
    
    [GRAPHIC] [TIFF OMITTED] T0088.073
    
    [GRAPHIC] [TIFF OMITTED] T0088.074
    
    [GRAPHIC] [TIFF OMITTED] T0088.075
    
    [GRAPHIC] [TIFF OMITTED] T0088.076
    
    [GRAPHIC] [TIFF OMITTED] T0088.077
    
    [GRAPHIC] [TIFF OMITTED] T0088.078
    
    [GRAPHIC] [TIFF OMITTED] T0088.079
    
    [GRAPHIC] [TIFF OMITTED] T0088.080
    
    [GRAPHIC] [TIFF OMITTED] T0088.081
    
    [GRAPHIC] [TIFF OMITTED] T0088.082
    
    [GRAPHIC] [TIFF OMITTED] T0088.083
    
    [GRAPHIC] [TIFF OMITTED] T0088.084
    
    [GRAPHIC] [TIFF OMITTED] T0088.085
    
    [GRAPHIC] [TIFF OMITTED] T0088.086
    
    [GRAPHIC] [TIFF OMITTED] T0088.087
    
    [GRAPHIC] [TIFF OMITTED] T0088.088
    
    [GRAPHIC] [TIFF OMITTED] T0088.089
    
    [GRAPHIC] [TIFF OMITTED] T0088.090
    
    [GRAPHIC] [TIFF OMITTED] T0088.091
    
    [GRAPHIC] [TIFF OMITTED] T0088.092
    
    [GRAPHIC] [TIFF OMITTED] T0088.093
    
    [GRAPHIC] [TIFF OMITTED] T0088.094
    
    [GRAPHIC] [TIFF OMITTED] T0088.095
    
    [GRAPHIC] [TIFF OMITTED] T0088.096
    
    [GRAPHIC] [TIFF OMITTED] T0088.097
    
    [GRAPHIC] [TIFF OMITTED] T0088.098
    
    [GRAPHIC] [TIFF OMITTED] T0088.099
    
    [GRAPHIC] [TIFF OMITTED] T0088.100
    
    [GRAPHIC] [TIFF OMITTED] T0088.101
    
    [GRAPHIC] [TIFF OMITTED] T0088.102
    
    [GRAPHIC] [TIFF OMITTED] T0088.103
    
    [GRAPHIC] [TIFF OMITTED] T0088.104
    
    [GRAPHIC] [TIFF OMITTED] T0088.105
    
    [GRAPHIC] [TIFF OMITTED] T0088.106
    
    [GRAPHIC] [TIFF OMITTED] T0088.107
    
    [GRAPHIC] [TIFF OMITTED] T0088.108
    
    [GRAPHIC] [TIFF OMITTED] T0088.109
    
    [GRAPHIC] [TIFF OMITTED] T0088.110
    
    [GRAPHIC] [TIFF OMITTED] T0088.111
    
    [GRAPHIC] [TIFF OMITTED] T0088.112
    
    [GRAPHIC] [TIFF OMITTED] T0088.113
    
    [GRAPHIC] [TIFF OMITTED] T0088.114
    
    [GRAPHIC] [TIFF OMITTED] T0088.115
    
    [GRAPHIC] [TIFF OMITTED] T0088.116
    
    [GRAPHIC] [TIFF OMITTED] T0088.117
    
    [GRAPHIC] [TIFF OMITTED] T0088.118
    
    [GRAPHIC] [TIFF OMITTED] T0088.119
    
    [GRAPHIC] [TIFF OMITTED] T0088.120
    
    [GRAPHIC] [TIFF OMITTED] T0088.121
    
    [GRAPHIC] [TIFF OMITTED] T0088.122
    
    [GRAPHIC] [TIFF OMITTED] T0088.123
    
    [GRAPHIC] [TIFF OMITTED] T0088.124
    
    [GRAPHIC] [TIFF OMITTED] T0088.125
    
    [GRAPHIC] [TIFF OMITTED] T0088.126
    
    [GRAPHIC] [TIFF OMITTED] T0088.127
    
    [GRAPHIC] [TIFF OMITTED] T0088.128
    
    [GRAPHIC] [TIFF OMITTED] T0088.129
    
    [GRAPHIC] [TIFF OMITTED] T0088.130
    
    [GRAPHIC] [TIFF OMITTED] T0088.131
    
    [GRAPHIC] [TIFF OMITTED] T0088.132
    
    [GRAPHIC] [TIFF OMITTED] T0088.133
    
    [GRAPHIC] [TIFF OMITTED] T0088.134
    
    [GRAPHIC] [TIFF OMITTED] T0088.135
    
    [GRAPHIC] [TIFF OMITTED] T0088.136
    
    [GRAPHIC] [TIFF OMITTED] T0088.137
    
    [GRAPHIC] [TIFF OMITTED] T0088.138
    
    [GRAPHIC] [TIFF OMITTED] T0088.139
    
    [GRAPHIC] [TIFF OMITTED] T0088.140
    
    [GRAPHIC] [TIFF OMITTED] T0088.141
    
    [GRAPHIC] [TIFF OMITTED] T0088.142
    
    [GRAPHIC] [TIFF OMITTED] T0088.143
    
    [GRAPHIC] [TIFF OMITTED] T0088.144
    
    [GRAPHIC] [TIFF OMITTED] T0088.145
    
    [GRAPHIC] [TIFF OMITTED] T0088.146
    
    [GRAPHIC] [TIFF OMITTED] T0088.147
    
    [GRAPHIC] [TIFF OMITTED] T0088.148
    
    [GRAPHIC] [TIFF OMITTED] T0088.149
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. JONES

    Dr. Gilroy. 42,600 Servicemembers have been clinically diagnosed 
with Post Traumatic Stress Disorder following a deployment to Operation 
Enduring Freedom/Operation Iraqi Freedom between October 1, 2001 and 
December 31, 2008. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. There has been a suggestion that the reserve components 
have the capability to begin basic training programs and allow newly 
accessed service members the opportunity to delay attendance at active 
duty schools when class slots are not available. This would allow 
active duty training schools to design abbreviated courses for such 
members and reduce waiting times and student loads at the active duty 
schools. All Panel Members, is there an opportunity to save time and 
resources for training of new accessions by developing a hybrid 
training program to begin basic training within the reserve units and 
have the active component schools complete the training using an 
abbreviated schedule?
    Dr. Gilroy. Office of the Under Secretary of Defense (Personnel and 
Readiness) does not have visibility into the Services training 
syllabus. And since the Reserve Components determine student 
availability, we defer to the Services on this question.
    General Rochelle. The Training and Doctrine Command (TRADOC) and 
the Army National Guard (ARNG) are developing a pilot program for 
evaluating a split base training program between ARNG units under the 
Recruit Sustainment Program (RSP) and an active Army Training Center. 
The objective of the RSP is to retain and engage new recruits by 
providing preparatory military training prior to attending Basic Combat 
Training (BCT). The intent of the Pilot program is to leverage the 
basic combat skills received from the RSP in order to shorten the 
duration of basic training. This program involves only the ARNG and not 
the Army Reserve. TRADOC and the ARNG are looking at the feasibility of 
this program through a cost benefit analysis.
    Admiral Ferguson. Navy approaches training for the Total Force by 
providing the same training to both Active and Reserve enlisted 
Sailors. This produces Sailors that are trained alongside one another 
in common accession and skill training programs so they may be fully 
integrated into the Navy whether sent to a first active duty assignment 
or placed in drill status within the reserve component. This approach 
enables these fully trained Reservists to be qualified to immediately 
fill billets within their Reserve units and have completed sufficient 
active duty service for deployment eligibility. Development of a hybrid 
training program would be a step backward and likely increase costs 
related to conducting support for additional training tracks. Navy used 
a similar approach before 2006 when non-prior service Reserve recruits 
were sent to a shortened basic training course, then completed skill 
training with their Reserve units. However, Navy found that higher 
attrition resulted among these new Reserve Sailors due primarily to 
dissatisfaction with the lengthy time required to fully qualify in 
their rating. Costs associated with support for today's integrated 
Active/Reserve training approach are an investment in our young 
enlisted Sailors and are viewed as critical to Total Force mission 
success.
    General Coleman. The Marine Corps does not believe that time or 
resources can be saved by implementing hybrid training programs for our 
Reserve component members. The Marine Corps has long maintained a 
single standard for basic training and follow-on school training. 
Deviating from this standard by having Reserve members undergo modified 
curricula will, ultimately, detract from our Total Force competency and 
require the expenditure of additional time and resources ensuring our 
Reserve members are of the same professional caliber as our regular 
component members.
    General Newton. The Air Force Reserve (AFR) and Air National Guard 
(ANG) both have a program where the potential applicant signs a split-
training agreement prior to enlistment. Once enlisted, the member will 
attend Basic Military Training on his/her chosen departure date. If the 
AFR or ANG cannot secure a technical training school for the member 
while at Basic Military Training, the member will return to home unit 
until a technical training school can be secured. However, if the AFR 
or ANG can secure a technical training school then the member will go 
directly from Basic Military Training to technical training school if 
at all possible without returning to their home unit.
    There is no opportunity to shorten courses specifically for reserve 
components. The AFR, Active Duty Air Force and Air National Guard are a 
Total Force and train to the same level of readiness. All members must 
attend and complete required training in order to be fully successful 
in their career field, and most importantly to be mission ready at all 
times.
    Mrs. Davis. The initial budget submission just received suggests 
that the pay raise proposed for fiscal year 2010 will not be the 
enhanced raise with the .5 percent above the Employment Cost Index that 
the Congress has adopted over the past 10 years. All Panel Members, the 
Subcommittee understands that you do not believe the absence of the 
enhanced pay raise will have an effect on recruiting. Do you also 
believe that the absence of the enhanced pay raise will also not have 
an effect on retention?
    Dr. Gilroy. The Department believes that the absence of an 
additional 0.5 percent pay raise in FY 2010 will not impact retention. 
FY 2009 retention has been strong in the active force, with all 
Services having met or exceeded their overall retention missions. We 
anticipate continued strong retention for the foreseeable future. All 
Services continue to closely monitor and manage retention bonus 
programs and continue targeting vital skill areas. These retention 
bonus programs provide a far more effective and economically focused 
tool for managing and influencing retention than small additional 
increases in basic pay.
    General Rochelle. We do not anticipate any impact on retention due 
to the current FY10 budget (which was published May 11, 2009) now 
including the .5 percent raise. However, based on the economy we do not 
see a significant adverse impact on retention if the additional pay 
raise of .5 percent were not included.
    Admiral Ferguson. The current economic state has contributed to 
historic retention rates at all levels of seniority, and our current 
projected loss rate of 4.4 percent is the lowest in the past ten years. 
Because Navy is a counter-cyclical employer, the recruiter corps has 
enjoyed a significant increase in both quality and quantity of 
applicants in the past six months, when compared with previous years. 
Similarly, a generally greater interest in service has allowed for 
overall reductions in retention pays, although we still require them to 
target certain hard-to-fill critical skill specialties.
    Additionally, DoD, with Congressional support, has made significant 
strides in the last decade to close the previously existing pay gap 
between Sailors and their peers in the private sector. A recent 
Congressional Budget Office report estimates that DoD Regular Military 
Compensation for enlisted personnel is comparable with the 70th 
percentile of earnings for civilian men of similar ages, education, and 
experience. An April 2008 Defense Manpower Data Center survey reports 
that 62 percent of Navy personnel are in a comfortable financial 
position, second highest among the Services. It appears that regular 
military compensation combined with strong job security and the 
comprehensive non-monetary benefits package associated with military 
service have allowed Sailors to weather the recent economic downturn at 
least as well as, if not better than, the comparable public at large.
    Historically, the enhanced pay raise has been used to combat broad, 
sweeping shortfalls in retention numbers across the Service. At this 
time, we assess that the absence of the enhanced pay raise will not 
significantly affect either retention or recruiting.
    General Coleman. Yes. The Marine Corps does not believe the absence 
of the enhanced pay raise will have a negative effect on retention. 
Eligible Marines are expected to reenlist at required rates during 
FY10.
    General Newton. While it is difficult to delineate the exact effect 
any specific compensation measure has on the overall retention of our 
Airmen, we do not anticipate this action having a detrimental effect on 
retention. Overall, in the aggregate, AF retention has been trending 
upward in 2009 and we expect this trend to continue. That said we still 
have some critical warfighting, emerging mission areas, and stressed 
specialties (low manning, retention, or extremely high operational 
demand) which do require increased attention to retain. We're 
continuing to address these needs largely through the use of retention 
bonuses.
    Mrs. Davis. Fiscal year 2008 is the second consecutive year that 
the Marine Corps Reserve has failed to achieve its end strength and the 
shortfall has doubled from 1,043 during fiscal year 2007 to 2,077 
during fiscal year 2008. The Navy Reserve has sustained a 23 percent 
reduction in end strength since 2003, the largest reduction of any 
component.
    Admiral Debbink and General Bergman, both the Navy Reserve and the 
Marine Corps Reserve would seem to have taken a back seat to active 
duty requirements in recent years. This treatment would seem to be 
inconsistent with your statements which outline the important 
contributions to wartime missions made by your respective reserve 
components. What is your strategic perspective regarding the future 
role of your components in support of your active duty counterparts and 
how do you reconcile that perspective with the decisions that 
deliberately targeted the end strength of your component in recent 
years?
    Admiral Debbink. The Selected Reserve (SELRES) remains the Navy's 
primary source of immediate mobilization manpower and Operational 
Support, and is therefore an integral element of the Total Force. With 
over 5,100 Reservists presently mobilized and over 55,000 Reserve 
activations since 9/11, the Reserve Component (RC) continues to fill 
critical roles in the Navy's Total Force missions.
    Since 2004, the Navy Reserve has experienced reductions and 
alignments in end strength, most of which were realized between FY04 
and FY06. The majority of these reductions were a result of an 
extensive Zero Based Review of Navy Reserve capabilities as part of 
Active Reserve Integration efforts conducted by U.S. Fleet Forces 
Command. Through this process, the Navy was able to validate Reserve 
manpower and equipment requirements and determine the ability of the 
Navy Reserve to deliver the required capabilities.
    More recently, the Navy established a working group to develop 
initiatives for institutionalizing the Operational Reserve, which 
completed a Reserve Capabilities Review (RCR) in December 2008 that 
successfully defined and assessed reserve capabilities as being 
strategic, operational or both, based on historic, current and planned 
employment. Using a concept that supports both the strategic and 
operational employment of the Reserves, the RCR documented and 
confirmed how the existing Reserve force structure is meeting current 
Navy operational and strategic demands and provided a baseline for 
future force structure refinement.
    While the Navy Reserve has progressed towards completing a planned 
24.1% end strength reduction from 2003 levels, it should be noted that 
the Active Component has also experienced significant manpower cuts 
during that same time. The Active Component has shed almost 50,000 
billets, or 14.1% of FY03 manpower totals, closing in on a planned 
15.8% total end strength reduction by the end of the FYDP. Both the 
Active and Reserve Component reductions were planned and consistent 
with Active Reserve Integration and Total Force initiatives to support 
the Fleet and Combatant Commanders. As a total force, the Navy is 
beginning to approach a steady-state in which the Reserve Force will 
remain a true force multiplier while enhancing the Navy's war fighting 
wholeness.
    As we look forward, the RC will continue to provide strategic 
depth, ready to surge forward anytime and anywhere, and will deliver 
operational capabilities to our Navy and Marine Corps team from peace 
to war. In addition, as emergent requirements develop, the Navy is 
poised to leverage the current, relevant, and adaptable skills the RC 
brings to the fight. This synergy ensures flexible, responsive, and 
agile capabilities ready to serve now, across a wide spectrum of 
operations and enhances the Navy Total Force.
    As the Navy continues to respond to today's dynamic environment, 
both active and reserve manpower requirements will be continually 
reevaluated for war fighting unity and effectiveness. The size of each 
component of the Navy's Total Force (Active Duty, Full-Time Support, 
SELRES, Civilian, and Contractor) will change to meet the evolving 
requirements and capabilities throughout the Planning, Programming, 
Budgeting and Execution process.
    General Bergman. The decisions that deliberately targeted our 
Reserve component in recent years were in keeping with our strategic 
perspective regarding the role of the Reserves. In our effort to build 
the active Marine Corps to 202,000 we deliberately sought out our 
Reserve members in keeping with our Reserve mission to augment and 
reinforce the regular component. Our Reservists responded in strength 
with 1,755 Marines returning or awaiting return to active duty in 
Fiscal Years 2007 and 2008. There are approximately 191 pending return 
in 2009. This has been a great contribution to the Marine Corps 
achieving our desired end strength ahead of schedule. Additionally, we 
shifted some of our recruiting focus from the Reserves to further 
support the active force build up. Despite these facts, we were still 
able to meet all of our mission requirements in support of wartime 
operations. Given our current state, we have now refocused our efforts 
by increasing our Non-Prior Service Reserve recruiting mission, 
doubling our Reserve incentives budget and expanding the eligibility to 
receive those incentives to help us recover our authorized strength of 
39,600. We believe this strength will allow us to continue making 
important contributions to wartime missions while achieving the 1:5 
deploy to dwell goal established by the Secretary of Defense.
    Mrs. Davis. The Army National Guard is reporting to have 367,000 
servicemembers assigned to the Selected Reserve. General Vaughn, given 
your ability to recruit and retain at higher levels, the Army National 
Guard would seem to be in reach of implementing a trainees, transients, 
holdees, and students (TTHS) account which would potentially eliminate 
the need to cross level qualified manpower to meet the deployment 
requirements of a unit. Ultimately, what end strength would be required 
by the Army National Guard to support a TTHS account?
    General Vaughn. An end strength of approximately 371,000 would 
support a TTHS account. This increased end strength would allow for a 
trained and ready force of 358,200 and a TTHS account of 12,500 
Soldiers. Having a higher end strength would create a more cohesive and 
ready force, the need for cross-leveling is minimized and recruits 
still awaiting training or in the training pipeline are not counted 
against our actual trained end strength.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY
    Mr. Murphy. The Air Force has applied internal budget reductions or 
budget shifting through Program Budget Decision 720 (PBD 720), that 
directly affect base operating structures (BOS) through the elimination 
of fire protection positions. Does the AF feel that these fire 
protection reductions will affect the Air Force's ability to adequately 
respond and mitigate a catastrophic event that could occur at an Air 
Force facility?
    General Newton. The Air Force does believe that we have sufficient 
AF firefighter authorizations to provide the required emergency 
response capability consistent with AF and DoD policy guidance. Without 
question, the Air Force has adequate and appropriate resources to 
respond and mitigate any emergency event that is likely to occur at an 
Air Force installation.
    Air Force conducted a comprehensive assessment of our fire fighting 
operations based on five years of emergency response data and found our 
people and facilities are much safer today because of the continual 
building improvements, with emphasis on fire prevention and early 
intervention at fires.
    The success of fire fighting operations relies on timely rapid 
intervention to prevent large fires from developing rather than relying 
on large numbers of firefighters to arrive after a large fire has 
already developed.
    Mr. Murphy. A CONOPs which the Air Force has distributed 
demonstrates that the Air Force intends to rely heavily on outside 
municipal resources for assistance in fire protection, rescue and 
emergency medical service responsibilities for Air Force facilities as 
part of the base operating structure reductions. Does the AF have an 
inherent responsibility to provide adequate emergency service response 
capability for the protection of Air Force assets and personnel? Should 
that responsibility be levied on municipalities and States?
    General Newton. The revised Air Force Fire Emergency Services (FES) 
CONOPS does not rely on increased support from municipal resources to 
protect our facilities and personnel. In fact, the Air Force continues 
to provide more mutual aid support to local communities than we receive 
by a factor of nearly 6 to 1.
    In developing our FES CONOPS, we conducted a comprehensive review 
and risk-based analysis of our fire departments based on emergency 
response data. Our analysis revealed the Air Force possessed the 
capability to respond to multiple events simultaneously and that the 
likelihood of such an occurrence was extremely low. This posture 
exceeded DoD requirements, affording us the opportunity to reduce 
firefighter manning while deliberately managing risk.
    During our evaluations, we looked at the support provided through 
mutual aid by local communities and concluded that municipal fire 
departments do not meet DoD requirements. Most municipal departments do 
not have the capability to support the aircraft fire protection 
mission. They don't have the proper equipment, are not trained to 
perform aircrew/passenger rescue, and can't meet DoD response times. By 
comparison, to support our flying mission the Air Force provides an 
extremely robust firefighter capability, both in equipment and 
personnel. On a per capita basis, the Air Force postures four times the 
number of firefighters than the average municipality.
    The Air Force has always included mutual aid from local 
municipalities in our planning and continues to do so, as is the normal 
practice of municipal fire departments throughout the United States. In 
most cases however, the aid we receive is not in the form of initial 
response. For large fires, municipal departments provide additional 
support services such as additional agent delivery, water resupply, and 
additional breathing air cylinders.
    Air Force Medical Groups are responsible to provide Emergency 
Medical Response for base assets and population, as appropriate, to 
support local mission requirements. Depending on various local factors, 
the Medical Groups utilize either AF Medical personnel (blue suiters or 
civilian employees), contract personnel, AF fire department EMTs and/or 
off-base mutual aid agreements to meet emergency medical response 
needs. At 13 AF bases, the Air Force Medical Service spent a total of 
$3.486M for contract ambulance services.
    Mr. Murphy. Reductions, regarding fire and emergency services 
appear to directly affect the Air Force's capability to affect an 
aircraft rescue or mitigate an aircraft incident. A review of the 
CONOPs shows that the AF will reduce staffing on aircraft firefighting 
vehicles from three (3) personnel to two (2). This appears to conflict 
with DoD requirements (DoD instruction DoD 6055.6) which establishes 
that such vehicles will be staffed with three (3) personnel. Does the 
Air Force intend to violate DoD Policy regarding these reductions?
    General Newton. Air Force Fire Emergency Services (FES) concluded 
sufficient AF firefighter staffing authorizations exist to provide the 
required emergency response capability is not in conflict with DoD 
requirements and does not violate DoD policy.
    Department of Defense Instruction (DoDI) 6055.06 prescribes 
staffing requirements but does not establish the number of people 
assigned to individual vehicles that respond together as a Company. In 
accordance with paragraph E2.12 a company is defined as a group of 
members: (1) under the direct supervision of an officer; (2) trained 
and equipped to perform assigned tasks; (3) usually organized and 
identified as ARFF, engine companies, ladder companies, rescue 
companies, squad companies, or multifunctional companies; and (4) 
operating with one piece of fire apparatus, except where multiple 
apparatus are assigned that are dispatched and arrive together, 
continuously operate together, and are managed by a single company 
officer.
    Our practice of staffing and dispatching aircraft firefighting 
vehicles insures that they are dispatched together and operate together 
under a single fire officer.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. Lieutenant General Vaughn, you stated in your written 
testimony that: ``Since we are currently above our authorized end 
strength, and we don't have the resources to keep our strength at this 
level, we are taking measures to scale back our strength within our 
legal limit by the end of FY 2009. Some of these measures include 
significant reduction to the enlistment and reenlistment bonuses that 
we are offering to the Soldiers.'' (Vaughn Testimony, page 3)
    Is your intention to scale back the Guard's end strength based 
solely on available resources or have you considered operational 
requirements as well? Will the reduction still allow the Army National 
Guard to meet its operational requirements while also reducing the use 
of cross-leveling and mitigating stress on the force? If your resources 
were increased and authorization for increased end strength was 
provided, would you prefer to maintain and/or increase your end 
strength levels? What would be the benefits of such an increase?
    General Vaughn. The decision to scale back rests solely on the 
authorized funding for 358,200 Soldiers. Operational requirements 
should not be affected by a reduction in end strength.
    The Army National Guard will meet its operational requirements. The 
reduction in end strength coupled with the termination of the current 
Stop Loss Policy may create further stress on the force and affect unit 
cohesion. Without a Stop Loss Policy Soldiers nearing the end of their 
enlistments or eligible for retirement will have to voluntarily extend 
before deploying.
    If both resources and authorization are increased it would be 
preferable to increase our end strength to 371,000. The benefits of the 
increase would be a relief on our strained ranks and create a more 
ready force by having a trained standing force and minimize cross-
leveling. Ultimately this increase in end strength would increase 
personnel readiness and deployability of our formations.
    Mr. Loebsack. The FY 2009 National Defense Authorization Act 
authorized the largest increase in Army National Guard full-time 
manning in 22 years. Please describe the benefits of full-time staffing 
to the Army National Guard.
    General Vaughn. Full time support (FTS) Soldiers serve as a nucleus 
for the 54 States and Territories and at the National Guard Bureau. The 
primary function is to provide support to the ARNG force ensuring the 
Citizen Soldiers are ready to perform the state and federal missions 
when called upon. FTS Soldiers are responsible for assisting in the 
organization, administration, recruitment, instruction, training, 
maintenance, and supply support to the ARNG, the Armed Forces on active 
duty, members of foreign military forces, Department of Defense and 
civilian employees. FTS Soldiers facilitate the ARNG's ability to 
perform several critical functions including: the transition from a 
Strategic Reserve to an Operational Force; unit modularity; growing 
assigned strength to 358,200. FTS personnel also coordinate training, 
mobilizing and deploying approximately 55,000 Soldiers annually in 
support of contingency operations. Full-time manning is the largest 
contributor to Army National Guard unit readiness.

                                  <all>

</pre></body></html>
